                                                                                  ★
                                                                                                         ★★
Inspector General’s
Statement

I  n looking back at the reporting period, three priority
issues come to mind, each deserving serious consideration:
                                                             While there are positive signs that human capital activ-
                                                             ities are indeed ongoing throughout the Corporation, I
                                                             urge increased attention to this issue given the
                                                             Corporation’s current state of flux. As we discuss later
        • Corporate Downsizing,
                                                             in this semiannual report, the strategies that the
                                                             Corporation is currently pursuing will be most effec-
        • Human Capital, and
                                                             tive if they are centralized, focused, and sustained. The
                                                             Corporation’s Human Resources Committee and the
        • Information Security.
                                                             recruitment of a human capital professional as
                                                             Associate Director of the Human Resources Branch of
The past 6 months at the Federal Deposit Insurance
                                                             the Division of Administration are steps in the right
Corporation (FDIC) have been marked by dramatic
                                                             direction towards achieving this goal.
corporate downsizing, streamlining, and restructuring
as the Corporation continues to reinvent itself under
                                                             The Office of Inspector General (OIG) will continue to
the leadership of Chairman Donald Powell. The
                                                             emphasize this view in the months ahead and offer
Corporation’s overall streamlining efforts included
                                                             assistance to the Corporation as it builds on the corner-
merging four divisions into two, an action that is esti-
                                                             stones discussed above. The OIG must lead by exam-
mated to save nearly 300 positions and $35 million per
                                                             ple, and we are in the process of doing so. The OIG’s
year. The streamlining is also intended to increase
                                                             participation in the FDIC's early retirement and buyout
operational efficiencies and empower employees
                                                             program and other attrition will result in the separa-
through the delegation of increased authority and
                                                             tion of 54 employees, or 25 percent of our April 2002
responsibility to lower levels within the organization.
                                                             staff level. We also closed our San Francisco office dur-
As part of overall savings, the Corporation’s approved
                                                             ing the reporting period. We understand the need to
field management restructuring plan is estimated to
                                                             effectively manage the corresponding changes in our
save $23.5 million over 5 years. As of September 30,
                                                             organization and processes. We also recognize the
2002 its 2002 buyout/retirement incentive program had
                                                             impact of organizational upheaval on the individuals
achieved a reduction of 699 staff and $80 million pro-
                                                             comprising our current workforce. Mindful of this,
jected savings in future operating costs. Additional
                                                             during the reporting period we issued the final version
staff departures are anticipated in 2003. Looking
                                                             of our Human Capital Strategic Plan. I fully support
ahead, the Corporation anticipates a staffing level of
                                                             this plan. It incorporates input received from OIG staff,
approximately 5,380 by December 31, 2006. Current
                                                             the GAO, and another OIG. Workforce analysis; com-
staff totals 5,500. In light of so many fundamental
                                                             petency investments; leadership development; and a
changes, each with ramifications to thousands of FDIC
                                                             results-oriented, high-performance culture are at its
employees and the work they carry out in pursuit of
                                                             core. We are currently developing a technical knowl-
the FDIC mission, some key questions must be asked.
                                                             edge inventory tool and will be working to develop key
                                                             competencies for our occupational series to align our
Is the Corporation placing sufficient emphasis on
                                                             recruiting, training, and professional development
human capital concerns? Is it developing an integrated
                                                             efforts with the OIG mission.
human capital framework that evidences leadership
commitment to human capital management; strategic
                                                             Turning now to the issue of Information Security.
human capital planning; acquiring, developing, and
                                                             Information, much of which is sensitive, is a critical
retaining talent; and a results-oriented organizational
                                                             corporate resource that must be protected. Information
culture—all cornerstones of human capital management
                                                             and analysis on banking, financial services, and the
according to the U.S. General Accounting Office (GAO)?




 2                                                                                                            1
economy form the basis for the development of public        operations. In keeping with the security program
policies and promote public understanding of and con-       being implemented throughout the Corporation, we
fidence in the nation’s financial system. Sound infor-      named an information security officer, formed an advi-
mation resources management is essential to the suc-        sory committee with representatives from each OIG
cessful accomplishment of the FDIC’s mission, goals,        component, published “e-security tips” for OIG staff,
and objectives. Based on our work this year related to      drafted new security-related policies, and identified
the Government Information Security Reform Act              priority information security areas for future focus. We
(GISRA), we concluded that the Corporation had estab-       will continue to devote attention to these issues inter-
lished and implemented management controls that             nally and will also work closely with the Corporation
provided limited assurance of adequate security over        to further its efforts to implement a comprehensive
its information resources.                                  information security program that provides reasonable
                                                            assurance of adequate security for its information
The FDIC had made progress in addressing a number           resources.
of security problems identified in our 2001 report. For
example, it enhanced its risk management program,           And finally, I am again compelled to address an unre-
developed a security awareness program, improved            solved matter related to the FDIC’s organizational lead-
security controls in the mainframe environment, and         ership. In past semiannual report statements I have
strengthened its disaster recovery and business conti-      voiced concern that the Corporation has been operat-
nuity planning and incident response tracking and           ing with key vacancies on its Board of Directors, a con-
reporting. However, we concluded that in 3 of 10 key        dition that I believe is to the Board’s detriment and that
management control areas evaluated, (Contractor             fails to ensure the independence of the FDIC. First, the
Security, Capital Planning and Investment Control, and      position of Vice Chairman has been vacant since
Performance Measurement), the FDIC had no assur-            January 2001. On October 3, 2002, the Senate Banking
ance that adequate security had been achieved. In a         Committee held confirmation hearings regarding the
fourth area—Security Act Responsibilities and               nomination of Director John Reich to be Vice
Authorities—we highlighted opportunities for the FDIC       Chairman of the FDIC. As of the date of this statement,
to strengthen the accountability and authority of one of    he had not yet been confirmed.*
its most important leadership positions related to infor-
mation security—the Chief Information Officer (CIO).        Second, I am concerned not only that Director Reich is
We provided Chairman Powell a list of 10 actions in         awaiting confirmation as Vice Chairman, but also that
priority order to address the concerns we identified in     a vacancy exists on the Board because one of the three
our review. Chief among those, we advocated appoint-        FDIC Director positions has remained unfilled since
ing a permanent CIO, ensuring that the CIO reports          September 1998. While several names have been sent
directly and solely to the Chairman, and filling key        forward for consideration, no definitive action has
vacancies in the Division of Information Resources          taken place to select a third FDIC Board Member.
Management that support information security initia-        Given the make-up of the five-member Board, com-
tives and operations.                                       prised of the Chairman of the FDIC, two FDIC
                                                            Directors, the Comptroller of the Currency, and the
For its part, as referenced later in our semiannual         Director of the Office of Thrift Supervision, the OIG’s
report, during the reporting period, in addition to our     position is that the balance between various interests
GISRA-related work, the OIG participated in a number        implicit in the Board’s structure is preserved only
of meetings and exchanges governmentwide to tackle          when all Board positions are filled. Thus, I reiterate my
information security issues. The OIG has also focused       position that it is critical—especially at this juncture in
attention on information security matters in its internal   the FDIC’s history, that a full Board be in place to pro-
                                                            *Following Senate confirmation on November 12, 2002, President George W. Bush
                                                            appointed Director Reich Vice Chairman of the FDIC on November 15.


 2                                                                                                                                 3
vide the Corporation the strong, sustained leadership    has appointed new senior leadership since our last
needed to meet the Corporation’s many challenges.        semiannual report. Patricia Black, former Counsel to
                                                         the Inspector General is now Deputy Inspector
The FDIC Chairman himself has recently offered a         General, and Fred Gibson, who has been serving as
daunting challenge to the entire regulatory community,   Acting Counsel, was recently named Counsel to the
a challenge that will likely warrant FDIC Board atten-   Inspector General. Pat and Fred are eminently quali-
tion and input. Speaking recently about the future of    fied to assume these new responsibilities. I am count-
regulatory agencies, the Chairman noted:                 ing on their assistance and sound legal advice and
                                                         counsel as I continue to lead our organization and
 “We’ve seen amazing dynamism and innovation             serve the FDIC at this critical time in its history.
 in banking over the last 20 years. Yet we keep
 in place a regulatory system rooted in an era




                                                         ★
 that is truly gone with the wind…Despite the
 convergence, efficiencies, and economies of scale
 achieved by the industry, the regulatory commu-         Gaston L. Gianni, Jr.
 nity is still mired in a confusing web of compet-       Inspector General
 ing jurisdictions, overlapping responsibilities,        October 31, 2002
 and cumbersome procedures. I know we can do
 better.”




                                                                        ★
The Chairman’s proposed overhaul of financial
services regulation would put in place three federal
regulators. These entities would oversee the banking
industry, the securities industry, and those companies
that choose an optional federal insurance charter. In
line with his proposed revamping of the regulatory
agencies, the Chairman announced that the FDIC
would be conducting a major study over the next year
on the future of banking in America. He has invited a
number of parties to join the FDIC in developing a
new and better structure for a new financial age. The
FDIC Board could have a significant role to play in
the debate that the Chairman has launched. Only
with a full complement of Members can the Board
provide maximum input to that debate and fully carry
out its corporate governance responsibilities.

Of additional note with respect to the FDIC’s leader-
ship, the Corporation named Steven O. App as its new
Chief Financial Officer during the reporting period.
Mr. App formerly served as the Deputy Chief Financial
Officer at the Department of the Treasury. The OIG
looks forward to continuing to work with him to
address issues of mutual interest. Similarly, the OIG




 4
Ta b l e o f Co n t e n t s
           Inspector General’s Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
           Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
           Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
           Major Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
           Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33
           OIG Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45
           Reporting Terms and Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .54
           Appendix I: Statistical Information Required by the Inspector




+
                               General Act of 1978, as amended . . . . . . . . . . . . . . . . . . . . . . . . . . . .56
           Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .64


           Tables
           Table 1: Significant OIG Achievements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50
           Table 2: Nonmonetary Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50


           Figures
           Figure 1: Products Issued and Investigations Closed . . . . . . . . . . . . . . . . . . . . . .53
           Figure 2: Questioned Costs/Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . .53
           Figure 3: Fines, Restitution, and Monetary Recoveries
                           Resulting from OIG Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . .53




                                                                                                                                   5
                                                                                   ★
                                                                                                         ★★
Overview
Major Issues                                                the Savings Association Insurance Fund, an action that
This section of our report focuses on key challenges        the OIG supports.
confronting the FDIC as it works to accomplish its
                                                            Turning attention to the Corporation’s more “opera-
mission. In the OIG’s view, these major issues fall into
                                                            tional” demands, the use of IT at the FDIC is crosscut-
two broad categories. First, the Corporation faces chal-
                                                            ting and absolutely essential to the Corporation’s
lenges related to its core mission of contributing to the
                                                            accomplishment of its mission. IT must be effectively
stability and public confidence in the nation’s financial
                                                            and efficiently used to achieve program results corpo-
system by insuring deposits, examining and supervis-
                                                            rate-wide. The Corporation must also continue to
ing financial institutions, and managing receiverships.
                                                            develop an enterprise architecture process to manage
Such challenges sometimes involve significant policy
                                                            technology, applications, and technical infrastructure
decisions and are often influenced by external factors
                                                            for the Corporation. It also needs to follow sound sys-
such as industry events, economic trends, activities of
                                                            tem development procedures and comply with IT prin-
other federal banking regulators, consumer concerns,
                                                            ciples espoused by legislation and regulation. A criti-
and congressional interest.
                                                            cal priority is ensuring that effective controls are in
Second, a number of important operational matters           place and implemented to ensure information system
require the Corporation’s attention as its workforce        security, mitigate risks, and protect IT resources.
actually carries out the corporate mission. These           Given the extent of the FDIC’s contracting activities,
issues touch on, for example, information technology        strong controls and vigilant contractor oversight are
(IT) resources and security, contracting activities,        also critical to the Corporation's success. Contracting
human capital concerns, cost efficiencies, performance      must be done in a fair and cost-effective manner. The
measurement and accountability, and physical security.      Corporation’s contract oversight mechanisms must
                                                            protect the FDIC’s financial interests and help ensure
In our prior semiannual report, we identified a new         that the FDIC is actually receiving the goods and serv-
emerging issue—that of the Quality of Bank Financial        ices for which it is spending millions of dollars.
Reporting and Auditing. This emerging risk potentially
affects the FDIC in its role as regulator, receiver, and    Major downsizing over the past years has impacted the
insurer. We update the OIG’s and the Corporation’s          FDIC workplace, and during the reporting period more
efforts to address this issue in this semiannual report.    occurred. In addition to losing staff, the Corporation
                                                            has merged groups and streamlined its organizational
With respect to the major issues relating to the            structure. As a result of these activities, the
Corporation’s core mission, the FDIC must address           Corporation has lost leadership and, in some cases,
risks to the insurance funds in a complex global bank-      expertise and historical knowledge. The Corporation is
ing environment that continues to experience change         taking steps to compensate for these resource losses
and offer expanded services. At the same time, the          and must build on ongoing initiatives to develop a
Corporation is charged with effectively supervising         comprehensive, integrated approach to human capital
financial institutions and carefully protecting con-        issues. It has established a Human Resources
sumers’ rights. A Board of Directors operating at full      Committee and must continue to focus attention on
strength is essential to lead the Corporation as it faces   human capital concerns in light of such significant
such challenges. Without a full Board, the Corporation’s    recent organizational change and additional resource
independence cannot be guaranteed. As the Corporation       challenges to come.
moves forward, deposit insurance reforms will continue
to be debated and deliberated by the banking industry
and the Congress. One aspect of such reform involves
the possible merger of the Bank Insurance Fund and




                                                                                                            7
In light of changes in the banking industry, advances in        card fraud, and misrepresentations regarding FDIC
technology, and such dramatic shifts in staffing and skill      insurance. Our report also highlights efforts of OIG
levels, the Corporation has been closely scrutinizing its       agents who received the Attorney General’s Award for
business processes and their associated costs in the inter-     Distinguished Service. Some of the investigations
est of identifying operational efficiencies. Among other        described reflect work we have undertaken in partner-
activities, its Supervision Process Redesign, New Financial     ship with other law enforcement agencies and with the
Environment, focus on e-business, and plans to relocate         cooperation and assistance of a number of FDIC divi-
many D.C.-based staff to Virginia Square in the future have     sions and offices. To ensure continued success, the
generated ideas for such efficiencies and are positive steps.   OIG will continue to work collaboratively with FDIC
                                                                management, U.S. Attorneys’ Offices, the Federal
Under the provisions of the Government Performance              Bureau of Investigation, and a number of other law
and Results Act with its emphasis on accountability,            enforcement agencies (see pages 33-44).
the Corporation establishes goals, measures perform-
ance, and reports on its accomplishments for all of             OIG Organization
these major issues and their corresponding challenges.
                                                                The OIG Organization section of our report highlights
With respect to a more recent concern, largely as a             several key internal initiatives that we have actively
result of the events of September 11, 2001, one year ago        pursued during the reporting period. The OIG’s inter-
we added the major issue of Ensuring Security of the            nal focus has been on realigning resources in light of
FDIC’s Physical and Human Resources to our list of              significant downsizing of staff and planning for the
management challenges. Our report discusses actions             challenges of the future. Our Human Capital Strategic
that the Corporation as taken to address these areas.           Plan is an important driver of that activity. This section
                                                                of our report also references some of the cooperative
Our Major Issues section discusses the OIG’s complet-           efforts we have engaged in with management during
ed and ongoing/planned work to help the Corporation             the reporting period. These include making presenta-
successfully confront these major issues and their              tions at corporate conferences and meetings and pro-
associated challenges. We discuss areas where we                viding technical assistance to corporate management
identified opportunities for improvements and the rec-          in determining whether FDIC policies ensure that
ommendations we made in those areas. We identified              accounting and auditing contractors comply with the
potential monetary benefits of $2.1 million and made            U.S. General Accounting Office’s new independence
73 nonmonetary recommendations during the report-               standards. We note the proposed or existing laws and
ing period. Our work targets all aspects of corporate           regulations reviewed during the past 6 months, refer to
operations and includes a number of proactive                   litigation and other efforts of OIG Counsel, and also
approaches and cooperative efforts with management              capture some of our other internal initiatives this
to add value to the FDIC (see pages 11-32).                     reporting period. In keeping with our goal of measur-
                                                                ing and monitoring our progress, we visually depict
Investigations
                                                                significant results over the past five reporting periods
The operations and activities of the OIG’s Office of            (see pages 45-53).
Investigations are described beginning on page 33 of
this report. As detailed in the Investigations section,
                                                                Appendixes
the Office of Investigations is reporting fines, restitu-       We list the Inspector General Act reporting require-
tion, and recoveries totaling approximately $820 mil-           ments and define some key terms in this section. The
lion. Cases leading to those results include investiga-         appendixes also contain much of the statistical data
tions of bank fraud, theft of government funds, credit          required under the Act (see pages 56-63).




 8
                                                                                   ★
                                                                                                         ★★
Highlights
★ The Office of Audits issues 22 reports containing         the U.S. General Accounting Office (GAO) and Office
  total questioned costs of $556,535 and a memoran-         of Management and Budget.
  dum identifying funds put to better use of $1.6 mil-
  lion.                                                   ★ The OIG issues its Government Information Security
                                                            Reform Act report, concluding that the Corporation
★ OIG reports include 73 nonmonetary recommenda-            had established and implemented management con-
  tions to improve corporate operations and activities.     trols that provided limited assurance of adequate
  Among these are recommendations to strengthen             security over its information resources. While
  security over FDIC information systems, improve the       progress had been made in addressing previously
  effectiveness of the offsite review program, develop      identified weaknesses, in 3 of 10 key management
  additional policy for and better capture and track        control areas evaluated (Contractor and Outside
  Gramm-Leach-Bliley Act-related activities, and            Agency Security, Capital Planning and Investment
  enhance the asset valuation review process.               Control, and Performance Measurement), the FDIC
                                                            had no assurance that adequate security had been
★ OIG investigations result in 14 indictments/informa-      achieved. Our report also highlighted opportunities
  tions; 17 convictions; and approximately $820 mil-        for the Corporation to strengthen the accountability
  lion in total fines, restitution, and other monetary      and authority of its Chief Information Officer posi-
  recoveries. Approximately $819 million of that            tion.
  amount represents court-ordered restitution and is
  not an amount that has been collected.                  ★ The OIG and GAO continue their joint effort to audit
                                                            the Corporation's financial statements. The OIG and
★ The OIG’s participation in the FDIC’s early retire-       GAO agree that the OIG will commit three staff
  ment and buyout program and other attrition will          members to perform the receivables from bank/thrift
  result in the separation of 54 employees. All OIG         resolutions and receivership receipts audit work.
  components adjust to reductions through staff reor-       One staff member will assist with information sys-
  ganizations and modifications in operational              tems testing. The OIG is developing a multi-year
  processes.                                                strategy for performance of the information systems
                                                            audit requirements starting in 2003.
★ Office of Audits reorganizes around five operational
  directorates: Resolution, Receivership, and Legal       ★ OIG counsel litigates 11 matters during the reporting
  Affairs; Insurance, Supervision, and Consumer             period and provides advice and counsel on a num-
  Affairs; Information Assurance; and Resource              ber of issues.
  Management. A fifth directorate, Corporate
  Evaluations, performs corporate-wide and other          ★ The OIG reviews and comments on one proposed
  evaluations.                                              federal regulation and 22 proposed FDIC policies
                                                            and directives and responds to 13 requests under the
★ The OIG issues its Human Capital Strategic Plan for       Freedom of Information Act and Privacy Act.
  2002-2006 outlining four objectives relating to work-
  force analysis; competency investments; leadership      ★ The OIG coordinates with and assists management
  development; and a result-oriented, high-perform-         on a number of initiatives, including a joint project
  ance culture.                                             with the Office of Internal Control Management and
                                                            the Division of Administration to ensure that
★ The OIG focuses audit and evaluation work on infor-       accounting and auditing contractors comply with
  mation security matters through such projects as          GAO's new independence standards, coordination
  issuance of the 2002 Government Information               with the Division of Supervision and Consumer
  Security Reform Act evaluation report, presentations      Protection (DSC) on its Process Redesign II project,
  at governmentwide meetings, and coordination with



                                                                                                          9
  and Office of Investigations and Office of Audits      ★ The OIG completes its annual review of the FDIC’s




                                                                              ★
  executives’ participation at the DSC Field Office        Internal Control and Risk Management Program,
  Supervisor meetings.                                     concluding that the program complied with policy
                                                           and was consistent with the Federal Managers’
★ The OIG accomplishes a number of internal office         Financial Integrity Act provisions.
  initiatives, including completion of a comprehensive
  plan for downsizing and restructuring, issuance of     ★ The OIG issues the results of its evaluations of the
  Office of Audits’ Fiscal Year 2003 Assignment Plan,      adequacy of the physical security of FDIC facilities in
  establishment of an information security program,        headquarters and other selected sites.
  and outreach activity to various banking organiza-




 ★
  tions on OIG operations.                               ★ As Vice Chair of the President’s Council on Integrity
                                                           and Efficiency, the Inspector General leads the
★ Four OIG Special Agents are among an 11-member           Inspector General community’s activities designed to
  team that receives the Attorney General’s Award for      facilitate agency efforts related to the President’s
  Distinguished Service for their exemplary work in        Management Agenda. These include work in the
  the investigations and prosecutions relating to the      financial management, government performance,
  failure of Keystone Bank, Keystone, West Virginia.       information technology, and human capital arenas.




★
10
                                                                                    ★
                                                                                                          ★★
Major Issues
                                                              The FDIC and the banking industry are experiencing
        Major Issues at the FDIC                              significant and rapid change. We believe a number of
                                                              issues associated with these challenges are deserving
In the interest of improving federal performance govern-      of special attention at this time.
ment-wide, the Senate Governmental Affairs Committee
has asked Offices of Inspector General to identify the most   Organizational Leadership
significant management challenges facing their agencies.      Strong leadership has always been vital to the success
At the FDIC, our office has identified and previously         of the banking and financial services industry. The
reported these challenges or major issues as follows:         FDIC Board is comprised of five directors, including
                                                              the FDIC Chairman, two other FDIC directors, the
•   Organizational Leadership                                 Comptroller of the Currency, and the Director of the
•   Addressing Risks to the Insurance Funds                   Office of Thrift Supervision. All are presidential
•   Supervising Insured Institutions                          appointees. At the FDIC, during the 1990s, one or
                                                              more presidentially appointed positions on the Board
•   Protecting Consumer Interests
                                                              of Directors frequently were vacant.
•   Deposit Insurance Reform
•   Managing Information Technology                           Additionally, the Board position of Vice Chairman has
•   Ensuring Sound Controls and Oversight of                  been unfilled since January 2001. John Reich, cur-
    Contracting Activities                                    rently a Director on the Board, has been nominated to
•   Establishing Goals and Measuring Results                  serve as Vice Chairman, and his confirmation hearing
•   Addressing Human Capital Issues                           occurred on October 3, 2002. Notwithstanding his
•   Containing Costs and Assessing Business                   potential confirmation, a Board vacancy still exists.
    Processes                                                 The Board has operated with an FDIC Director
•   Ensuring Security of Physical and Human                   vacancy since September 1998.
    Resources                                                 The FDIC is the independent regulator of a significant
                                                              portion of the nation’s banking system as well as the
In our previous semiannual report, we discussed a new
                                                              only federal insurer of deposits wherever they are
issue that has potential impact on the FDIC in its role as
                                                              placed in our nation’s banks. As a corporation
regulator, insurer, and receiver: the Quality of Bank
                                                              governed by its Board of Directors, the vital balance
Financial Reporting and Auditing. We update progress in
                                                              between various interests implicit in the Board’s struc-
this area in this semiannual report. The Corporation has a
                                                              ture is preserved only when all vacancies are filled.
number of ongoing programs and initiatives in place to
                                                              Accordingly, we have strongly urged that vacancies on
address all of these challenges, and we continue to work
                                                              the FDIC's Board be filled as promptly as practicable in
in partnership with the Corporation on these major issues.
                                                              order to afford the FDIC the balanced governance and
                                                              sustained leadership essential to the agency's contin-
Consistent with the concept of the Reports Consolidation
                                                              ued success.
Act, the Corporation will be consolidating financial and
performance reports for 2002 reporting.                       We cite organizational leadership as a major issue fac-
                                                              ing the Corporation based on our belief that to handle
The OIG will be updating its major issues and will provide    the challenges and issues facing the Corporation, par-
input on the most serious management and performance          ticularly in a regulatory environment that may change
challenges facing the Corporation for consideration in the    dramatically in the future, a Board of Directors operat-
FDIC's 2002 reporting.                                        ing at full strength must be in place.




                                                                                                              11
Addressing Risks to the
                                                                  Focus on Bank Insurance Fund
Insurance Funds
A primary goal of the FDIC under its insurance pro-
                                                                    Designated Reserve Ratio
gram is to ensure that its deposit insurance funds              The Federal Deposit Insurance Act, Section 7(b),
remain viable. Achieving this goal is a considerable
                                                                Assessments, requires the FDIC Board of Directors to
challenge, given that the FDIC supervises only a por-
                                                                set semiannual assessments for insured depository
tion of the insured depository institutions. The identifi-
cation of risks to non-FDIC supervised institutions             institutions if the required reserve ratio of the insur-
requires coordination with the other federal banking            ance fund balance to estimated insured deposits falls
agencies. The FDIC engages in an ongoing process of             below 1.25 percent.
proactively identifying risks to the deposit insurance
funds and adjusting the risk-based deposit insurance            As of March 31, 2002, the Bank Insurance Fund (BIF)
premiums charged to the institutions. The Division of           reserve ratio was at 1.23 percent, the first time it had
Finance completes the final phase of this ongoing               fallen below 1.25 percent since 1995. By June 30,
process by collecting the premium assessments.                  2002, the BIF reserve ratio was at 1.26 percent, slight-
                                                                ly above the statutorily mandated designated reserve
Although the FDIC has a continuous program to                   ratio for the deposit insurance funds. If the BIF ratio
ensure the viability of the deposit insurance funds,            is below 1.25 percent, the FDIC Board of Directors
recent trends and events continue to pose additional
                                                                must charge premiums to banks that are sufficient to
risks to the funds. The economic landscape changed
                                                                restore the ratio to the designated reserve ratio within
dramatically following the events of September 11,
2001, and the potential exists for an increased number          1 year.
of bank failures. Additionally, the environment in
                                                                Mindful of this significant issue, the OIG will be con-
which financial institutions operate is evolving rapidly,
particularly with the acceleration of interstate banking;
                                                                ducting related work during the upcoming months.
new banking products and asset structures; electronic
banking; and consolidations that may occur among the
banking, insurance, and securities industries resulting       OIG Completes Superior Bank-Related Reviews
from the Gramm-Leach-Bliley Act (GLBA).                       In our previous semiannual report, we reported on a
                                                              series of reviews that we had conducted based on a
Bank mergers have created “megabanks,” or “large              congressional request from Senator Paul Sarbanes,
banks” (defined as institutions with assets of over           Chairman of the Senate Committee on Banking,
$25 billion), and, for many of these institutions, the        Housing, and Urban Affairs, related to the failure of
FDIC is not the primary federal regulator. As of              Superior Bank, FSB, Hinsdale, Illinois.
March 31, 2001, there were 38 megabanks in the coun-
try. Of the $5.3 trillion consolidated assets controlled by   Upon the failure of Superior Bank, the Office of Thrift
the 38 megabanks, the FDIC was the primary regulator          Supervision closed the institution on July 27, 2001. At
for only $162.5 billion in 3 institutions. The megabanks      the time of closure, Superior had total assets of $2.2 bil-
created as a result of mergers and the new or expanded        lion and total deposits of $1.6 billion. The FDIC was
services that the institutions can engage in under GLBA       named conservator and transferred the insured
are presenting challenges to the FDIC. The failure of a       deposits and substantially all of the assets of Superior
megabank, for example, along with the potential closing       to Superior Federal, FSB (New Superior), a newly char-
of closely affiliated smaller institutions, could result in   tered, full-service mutual savings bank. The failure of
huge losses to the deposit insurance funds.                   Superior was one of the costliest of all recent failures.
                                                              The FDIC’s most recent loss estimate is $440 million.
During the reporting period, the Corporation selected
designated onsite examiners to enhance the FDIC’s
risk monitoring of the eight largest insured institutions.




12
During the reporting period, we completed the last of our      GLBA activities with other regulatory agencies;
series of audits related to the Superior Bank failure—an       (2) DOS procedures had been updated to address the
audit of the Division of Resolutions and Receiverships’        restrictions and safeguards in GLBA; and (3) DOS was
(DRR) marketing efforts for the deposit liabilities, assets,   identifying banks that are directly or indirectly
and principal product groups of New Superior.                  engaged in GLBA activities. We concluded that DOS
                                                               had established coordination arrangements with other
We determined that DRR effectively marketed                    regulatory agencies but needed an updated agreement
Superior’s deposit liabilities and assets to maximize the      for information sharing with the Securities and
return to the conservatorship. The FDIC, as the receiv-        Exchange Commission (SEC). DOS had also updated
er, transferred deposit liabilities totaling $1.5 billion      or created related policies and procedures to address
and assets totaling $2 billion to New Superior. We             most of the GLBA provisions covered in our review
reviewed the sale of the deposit liabilities and approxi-      although some additional guidance was needed in the
mately 65 percent of the assets. DRR awarded the               area of related organizations. Also, while the FDIC
sales to the highest bidders in all sales we reviewed,         had access to Federal Reserve System data on financial
except for one security sale. We were unable to deter-         holding companies, DOS information systems did not
mine whether DRR selected the highest bidder for the           identify banks that were directly or indirectly engaged
one security sale, because of insufficiencies in the sale      in GLBA-affected activities.
file documentation.
                                                               We made four recommendations to DSC related to
OIG Reviews the FDIC’s Implementation                          developing information-sharing procedures in con-
of GLBA Provisions                                             junction with the FDIC Legal Division and the SEC,
Signed into law on November 12, 1999, GLBA reverses            expediting policy revisions, and enhancing information
many of the barriers between banking and commerce              systems and databases to better capture and track
erected by the Glass-Steagall Act of 1933 and is the           GLBA-related activity. DSC is taking action to address
most extensive reform of financial services regulation         all recommendations.
in over 60 years. GLBA also affects how various bank
and affiliate activities are regulated and examined.           Supervising Insured Institutions
GLBA eliminates many federal and state barriers to             The FDIC shares supervisory and regulatory responsi-
affiliations among banks and securities firms, insur-          bility for approximately 9,480 banks and savings insti-
ance companies, and other financial services                   tutions with other regulatory agencies including the
providers. Financial organizations are provided flexi-         Board of Governors of the Federal Reserve System, the
bility in structuring these new financial affiliations         Office of the Comptroller of the Currency, the Office of
through a holding company structure or a financial             Thrift Supervision, and state authorities. The FDIC is
subsidiary. The Federal Reserve System remains the             the primary federal regulator for 5,417 federally
“umbrella” supervisor for holding companies, but               insured state-chartered commercial banks that are not
GLBA also incorporates “functional regulation” to use          members of the Federal Reserve System, which
the strengths of the various federal and state financial       includes state non-member banks, including state-
supervisors. Increased affiliation between state non-          licensed branches of foreign banks and state-chartered
member banks and other financial services providers            mutual savings banks. The challenge to the
engaged in expanded activities—in a new functional             Corporation is to ensure that its system of supervisory
regulation environment—poses risks to the FDIC and             controls will identify and effectively address financial
the Bank Insurance Fund.                                       institution activities that are unsafe, unsound, illegal,
We conducted an audit that focused on three of the             or improper before the activities become a drain on the
GLBA's seven titles to determine whether: (1) the              insurance funds.
Division of Supervision (DOS), now known as the
Division of Supervision and Consumer Protection
(DSC), had established coordination arrangements for




                                                                                                               13
Emerging trends and new developments in the bank-
ing industry require the DSC to identify and assess            Joint Evaluation of the Federal
risks from such activities as:
                                                                   Financial Institutions
 • subprime lending;                                                Examination Council
 • declining underwriting standards for commercial           We collaborated with the Offices of Inspector General
   real estate lending;                                      of the Department of the Treasury and the Board of
 • rapid changes in bank operations between safety           Governors of the Federal Reserve System (FRB) to
   and soundness examinations;                               conduct a review of the Federal Financial Institutions
                                                             Examination Council (FFIEC). The FFIEC is a formal
 • the growth of information technology and its              interagency body empowered to prescribe uniform
   increasing impact on payment systems and other            principles, standards, and report forms for the federal
   traditional banking functions;                            examination of financial institutions by the FRB, FDIC,
                                                             National Credit Union Administration, Office of the
 • fraudulent activities, which have contributed             Comptroller of the Currently (OCC), and Office of Thrift
   significantly to bank failures in recent years; and       Supervision (OTS) and to make recommendations to
 • expanded banking activities permitted by                  promote uniformity in the supervision of financial
   the GLBA.                                                 institutions.

Further, DSC may have to reevaluate the concepts of          We issued a report concluding that the FFIEC is
risk, capital, and asset valuation in light of ever devel-   accomplishing its legislative mission of prescribing
oping investment products and methods.                       uniform principles, standards, and report forms and
                                                             is achieving coordination between the banking agen-
The FDIC has worked to increase the efficiency of the
                                                             cies. Further, most officials stated that the FFIEC’s
bank examination process designed to identify and
assess these risks. Its Process Redesign efforts are         role and mission were appropriate going forward and
ongoing. Additionally, the Corporation reported in its       should not be expanded because of the Gramm-
3rd quarter Letter to Stakeholders that for the year-to-     Leach-Bliley Act. Notwithstanding, some officials
date, it had completed 485 expedited examinations of         indicated that the FFIEC could accomplish its mission
well-managed/well-capitalized banks under $250 mil-          more effectively. The Council has discussed a num-
lion, resulting in a reduction of the average examina-       ber of measures to improve FFIEC effectiveness,
tion time on these institutions of more than 20 percent.     including having the principals more actively involved
With the possibility of a serious economic downturn,         in FFIEC matters and developing annual goals, objec-
and in light of the magnitude of FDIC corporate reor-
                                                             tives, and work priorities for the task forces.
ganization and downsizing, DSC must continue to
assess its size and the mix of expertise and skills in its   The FRB, OTS, OCC, and FDIC provided written com-
workforce to ensure sufficient capacity for addressing       ments on a draft of the report. The FRB, OCC, and
increased risks. Considering the lead-time for develop-
                                                             FDIC responses concurred with the report’s overall
ing new commissioned examiners, the FDIC needs to
ensure the examination workforce will be adequate for        conclusions. The OTS’s response did not specifically
handling potential problems and bank failures.               comment on the overall conclusions but raised sever-
                                                             al points that we clarified in the final report. A
OIG Reviews Offsite Rating Tool                              detailed summary of the various agency comments is
During 1998, the FDIC implemented a new offsite rat-         included in the final report.
ing tool, the Statistical CAMELS Offsite Rating (SCOR)
review, to more effectively and efficiently monitor risk




14
to the banking and thrift systems. SCOR uses quarterly                             The FDIC’s Assessment of Corrective Action Work
Reports of Condition and Income (Call Reports)1 to                                 Performed by Third-Party Contractors
identify institutions that could potentially receive a                             One of the Corporation’s annual performance goals for
downgrade in their CAMELS ratings at their next                                    2002 is that prompt supervisory actions are taken to
safety and soundness examination. To do this, SCOR                                 address problems identified in institutions identified as
uses statistical techniques to estimate the relationship                           problem insured depository institutions and that the
between Call Report data and the results of the latest                             Corporation monitor these institutions’ compliance with
examination and estimates the probability of an institu-                           formal and informal enforcement actions. Corrective
tion being downgraded at the next examination.                                     actions are agreements (informal) or legally enforceable
                                                                                   orders (formal) that the FDIC may institute against a
We completed an audit to determine the effectiveness
of SCOR as an early warning system and to assess
actions taken by the DSC in response to early warning                                  Asset Valuation Review Process
flags identified by SCOR. The audit was conducted
nationwide and included a sample of banks from all                                       for Sinclair National Bank
FDIC regional offices.
                                                                                      We audited the FDIC’s asset valuation review (AVR)
We concluded that the effectiveness of the SCOR                                       process for Sinclair National Bank, which failed on
review program in detecting potential deterioration in                                September 7, 2001. The Division of Resolutions and
the financial condition of insured depository institu-                                Receiverships’ (DRR) AVR process resulted in a rea-
tions, as presently implemented, was limited. SCOR                                    sonable estimate of the overall value for the assets
had not identified emerging supervisory concerns or
                                                                                      of Sinclair. We found that 28 of the 68 individual
provided early warnings of potential deterioration at
the majority of financial institutions we reviewed.                                   Sinclair asset valuations that we tested contained
Further, case managers were placing limited reliance                                  significant misstatements, defined as valuation dis-
on SCOR as an early warning system.                                                   crepancies that exceeded or could have exceeded 10
                                                                                      percent of the FDIC’s final AVR price for the individ-
Our report contained three recommendations intended                                   ual asset. However, the net dollar impact of these
to improve the SCOR offsite review program. First, we                                 errors, when the revised valuations were incorporat-
recommended that DSC assess the usefulness of SCOR
                                                                                      ed into the Standard Asset Value Estimation process,
as an early warning system as it is currently being
                                                                                      was less than 1 percent of the total AVR price of
implemented. If DSC determines that SCOR should
continue as part of the offsite monitoring program, we                                $21.6 million for all the Sinclair assets.
recommended that DSC revise SCOR procedures to
                                                                                      While the individual valuation discrepancies for the
require that the DSC case manager analyses be per-
formed within shorter timeframes than allowed by the                                  Sinclair resolution were not large in relation to the
current procedures. We also recommended that DSC                                      total AVR price for all assets, they stemmed from
instruct case managers to more often recommend                                        procedural weaknesses that could result in larger
onsite activity or other interactions with the institution                            dollar losses on the disposition of individual assets
as a follow-up action for those institutions flagged by                               in future resolutions. We also identified other weak-
SCOR that also have previously identified management                                  nesses that could result in unnecessary costs to the
weaknesses.                                                                           FDIC in future resolutions if not corrected.
DSC concurred with each of the three recommenda-                                      Thus, while the process was generally effective, we
tions and took corrective action in response.                                         recommended additional controls to help DRR main-
                                                                                      tain the accuracy of the AVR process results and
                                                                                      recover the highest value for failing institutions.
                                                                                      DRR was responsive to all recommendations.
1
 Call Reports are sworn statements of a bank’s financial condition that are sub-
mitted to supervisory agencies quarterly in accordance with federal regulatory
requirements. Call Reports consist of a balance sheet and income statement and
provide detailed analyses of balances and related activity.
                                                                                                                                      15
financial institution or individual respondent to correct      tions relating to the administrative, technical, and
noted safety and soundness or compliance deficiencies.         physical safeguards of consumer records and informa-
During the reporting period we conducted an audit to           tion. The Federal Financial Institutions Examination
determine whether work performed by third-party con-           Council has issued guidance summarizing procedures
tractors for FDIC-supervised institutions met the require-     for examining compliance with the regulation. Our
ments of corrective actions instituted by the FDIC’s DOS.
                                                               audit work will address whether privacy examinations
We concluded that the FDIC accepted work performed by          are conducted in accordance with applicable GLBA
third parties as meeting the requirements of the correc-       provisions and corrective actions are taken in a timely
tive actions instituted by the Corporation, and third-party    manner when banks do not comply.
work was completed within established timeframes.
Also, DOS reviewed the corrective actions to ensure their      Deposit Insurance Reform
completeness in addressing the underlying safety and           In October 2001, Chairman Powell testified on deposit
soundness concerns. We made no recommendations in              insurance reform before the Subcommittee on
this report.                                                   Financial Institutions and Consumer Credit, Committee
                                                               on Financial Services, U.S. House of Representatives.
Protecting Consumer Interests                                  The Chairman recommended the merger of the Bank
The FDIC is legislatively mandated to enforce various          Insurance Fund (BIF) and the Savings Association
statutes and regulations regarding, for example, consumer      Insurance Fund (SAIF), charging risk based premiums
protection and civil rights with respect to state-chartered,   to all institutions, allowing insurance funds to build or
non-member banks and to encourage community invest-            shrink around a target or range, establishing assess-
ment initiatives by these institutions. Some of the more       ment credits based on past contributions, and indexing
prominent laws and regulations in this area include the        insurance coverage and raising the insurance on
Truth in Lending Act, Fair Credit Reporting Act, Real          retirement accounts.
Estate Settlement Procedures Act, Fair Housing Act, Home
Mortgage Disclosure Act, Equal Credit Opportunity Act,         The FDIC views these recommendations as interrelat-
and Community Reinvestment Act of 1977.                        ed and believes they should be implemented as a pack-
                                                               age because piecemeal implementation could intro-
The Corporation accomplishes its mission related to            duce new distortions and aggravate the problems that
fair lending and other consumer protection laws and            the recommendations are designed to address. During
regulations primarily by conducting compliance exam-           the reporting period, on May 22, 2002, deposit insur-
inations, taking enforcement actions to address unsafe         ance reform legislation, based on the FDIC’s recom-
or unsound banking practices and compliance viola-             mendations, passed the House of Representatives. The
tions, encouraging public involvement in the compli-           Corporation also continued to pursue its case for com-
ance process, assisting financial institutions with fair       prehensive deposit insurance reform in speeches,
lending and consumer protection compliance through             banker outreach sessions, and visits to other Members
education and guidance, and providing assistance to            of Congress.
various parties within and outside of the FDIC. During
the reporting period the Corporation made progress             While conceptually the recommendations appear to the
implementing its adult financial education curriculum,         OIG to be sound, we have not done work related to all
“Money Smart,” nationwide.                                     of them. Based on work to date, the OIG strongly sup-
                                                               ports merging the funds.
In the area of consumer protection, the OIG has
planned an audit of the implementation of GLBA priva-          Chairman Powell has noted the unanimity within the
cy provisions. GLBA requires banking agencies to               banking community on this particular point. Today, as
establish appropriate standards for financial institu-         a result of bank mergers and acquisitions, many insti-




16
tutions hold both BIF- and SAIF-insured deposits,           •   Provide an IT Infrastructure that Works
obscuring the difference between the funds. The                 Everywhere, All the Time.
resulting merged fund would not only be stronger and
better diversified but would also eliminate the concern     •   Improve the Efficiency and Effectiveness of IT
about a premium disparity between the BIF and the               Management.
SAIF. Assessments in the merged fund would be based
on the risk that institutions pose to the single fund.     The plan is updated every year based on DIRM manage-
The prospect of different prices for identical deposit     ment planning conferences, client input, changes in the
insurance coverage would be eliminated. Also, insured      overall business planning process and priorities, and
institutions would no longer have to track their BIF       new technology developments. Accomplishing IT goals
and SAIF deposits separately, resulting in cost savings
for the industry.                                                         OIG Participates on
We will continue to monitor deposit insurance reform,                       EBISS Project
as changes in this area will impact the way the FDIC
operates and how our office can best support the FDIC           A member of the OIG’s audit staff participated in a
in pursuit of its mission.                                      group focusing on Network Vulnerability Scanning
                                                                Tools (NVSTs) under the Executive Branch
Managing Information Technology                                 Information Systems Security (EBISS) committee.
As the Corporation works to contribute to the stability         EBISS was established by the President’s Critical
and public confidence in our nation’s financial system,         Infrastructure Protection Board. Our representative,
information technology (IT) continues to play an                along with seven other government and industry
increasingly greater role in every aspect of the FDIC           representatives, completed a report and made the
mission. As corporate employees carry out the FDIC’s            following recommendations to the EBISS committee.
principal business lines of insuring deposits, examining
and supervising financial institutions, and managing            • Mandate the use of NVSTs for all federal
receiverships, they rely on information and correspon-            agencies.
ding technology as a critical resource. Information and
analysis on banking, financial services, and the econo-         • Establish a hybrid centralized/decentralized
my form the basis for the development of public poli-             approach: centralized procurement, decentral-
cies and promote public understanding and confidence              ized execution, and centralized reporting.
in the nation’s financial system.
                                                                • Establish, formalize, and promulgate minimum
In early 1998, the Corporation’s Division of Information          standards for NVST evaluation and usage (based
Resources Management (DIRM) and the other FDIC                    on the National Institute of Standards and
divisions laid out an IT strategy to address the next             Technology Special Publication 800-42, Draft
3-5 years and articulated five IT strategic goals:                Guideline on Network Security Testing).

 •   Make Customer Satisfaction Our Primary Measure             • Assign a central entity with the responsibility to
     of Success.                                                  maintain a list of NVSTs that meet the minimum
                                                                  standards described above.
 •   Improve Corporate Business Processes and
     External Relationships Through the Use of                  This report is significant because the actions recom-
     Technology.                                                mended would improve the security and reliability of
                                                                the government’s critical networks.
 •   Manage Information for the Corporation.




                                                                                                                17
efficiently and effectively requires significant expendi-    ★ E-Business. The FDIC is actively pursuing e-busi-
tures of funds and wise decision-making and oversight          ness relationships both with the institutions it
on the part of FDIC management. The Corporation's              insures and with the vendor community that pro-
2002 IT budget is approximately $192.5 million.                vides goods and services to the Corporation. It is
                                                               making FDICconnect available to more than 9,000
The Corporation must constantly evaluate technologi-
                                                               insured institutions. FDICconnect is an e-business
cal advances to ensure that its operations continue to
                                                               channel between the FDIC and its insured institu-
be efficient and cost-effective and that it is properly
                                                               tions and allows for the direct exchange and sharing
positioned to carry out its mission. The capabilities
                                                               of information over the Internet.
provided by IT advances, such as paperless systems,
electronic commerce, electronic banking, and the             ★ Information security program improvements.
instantaneous and constant information-sharing                 The Corporation continues to develop and imple-
through Internet, Intranet, and Extranet sources, also         ment an information security program to address
pose risks to the Corporation and the institutions that it     identified weaknesses. Several areas of focus are
regulates and insures. Many of the risks are new and           enhancing security performance measurement and
unique. Solutions to address them are sometimes diffi-         contractor and external security.
cult and without precedent.
                                                             ★ Enterprise Architecture. A new enterprise archi-
In addition to technological advances that assist the          tecture process will be introduced to manage tech-
Corporation in its mission, the Corporation must con-          nology, applications, and technical infrastructure for
tinue to respond to the impact of laws and regulations         the Corporation. The new enterprise architecture
on its operations. Management of IT resources and IT           process will be integral to corporate and IT planning
security have been the focus of several significant leg-       and should provide a corporate view of and future
islative acts, such as the Government Performance and          direction for business processes, information, appli-
Results Act and the Paperwork Reduction Act. The               cations, and infrastructure. It will also provide the
Government Information Security Reform Act (GISRA)             standards and procedures to be followed whenever a
requires the OIG to conduct an annual evaluation of            new information system is built.
the FDIC's information security controls. We complet-
ed our second such review during the reporting period,       Our work in the IT area during the reporting period
as discussed in more detail below.                           focused principally on our reporting responsibility under
                                                             GISRA and related assignments, as discussed below.
According to the 2002 Annual Performance Plan, the
Corporation will continue to be engaged in several           OIG Reports GISRA Results
major technology initiatives during the remainder of         The most significant report that we issued in the IT
2002. These include the following:                           area was our GISRA report entitled Independent
                                                             Evaluation of the FDIC's Information Security
★ New Financial Environment. The FDIC is work-               Program—2002.
  ing to replace core components of its financial sys-
  tem and anticipates that the new financial environ-        GISRA requires annual agency program reviews of
  ment will improve business processes by adopting           information security by agency program officials, in
  the best practices built into software packages, sim-      consultation with Chief Information Officers, and
  plify and consolidate financial systems applications       annual independent evaluations by agency Inspectors
  and data, enhance efficiency by automating manual          General. Our first such evaluation report, entitled
  work, maximize e-business opportunities, and pro-          Independent Evaluation of the FDIC’s Information
  vide better decision-making to ensure continuity of        Security Program Required by the Government
  financial operations.                                      Information Security Reform Act, was issued in
                                                             September 2001.



18
The objective of our 2002 review was to evaluate the                                 recognized standard setting organizations, such as the
effectiveness of the FDIC’s information security pro-                                National Institute of Standards and Technology, have
gram and assess the FDIC’s compliance with the                                       identified fundamental management principles and
requirements of the Security Act and related informa-                                controls needed to implement an effective information
tion security policies, procedures, standards, and                                   security management program. Based on our evalua-
guidelines. We relied primarily on the Office of                                     tion work, we found that the FDIC had taken some, but
Management and Budget (OMB) Circular No. A-130,                                      not all, of the actions necessary to establish and imple-
Management of Federal Information Resources,                                         ment these fundamental management principles and
Appendix III, Security of Federal Automated                                          controls. We concluded that the FDIC’s progress in
Information Resources, as criteria for evaluating the                                addressing the security weaknesses identified in our
adequacy of the FDIC’s information security program.                                 2001 Security Act evaluation report was offset by the
In addition, our evaluation focused on the FDIC’s                                    emergence of new information security weaknesses
efforts to improve its information security controls and                             identified during our current year evaluation.
practices relative to the baseline established in our                                Accordingly, our overall assessment of the FDIC’s
2001 Security Act evaluation report.                                                 information security program remained the same as
                                                                                     last year.
In summary, we concluded that the Corporation had
established and implemented management controls                                      Based on our evaluation results, we identified 10 steps,
that provided limited assurance of adequate security                                 listed in priority order, that the Corporation could take
over its information resources. In 3 of 10 key manage-                               in the near term to improve its information security
ment control areas evaluated (Contractor and Outside                                 operations (see write-up on next page). The observa-
Agency Security,2 Capital Planning and Investment                                    tions and conclusions contained in our evaluation
Control, and Performance Measurement), the FDIC                                      report were designed to assist the Corporation in fur-
had no assurance that adequate security had been                                     thering its efforts to implement a comprehensive infor-
achieved. In a fourth management control area                                        mation security program that provides reasonable
(Security Act Responsibilities and Authorities), we                                  assurance of adequate security for its information
highlighted opportunities for FDIC management to                                     resources. Consistent with the intent of the Security
strengthen the accountability and authority of one of its                            Act, we will continue to work with the Corporation in
most important leadership positions related to informa-                              accomplishing its goals in this critical area.
tion security, the Chief Information Officer.
                                                                                     Products Supporting GISRA Results
The FDIC had been working hard to address the secu-                                  We issued the following individual reports in support
rity weaknesses identified in our 2001 Security Act                                  of our GISRA-reported results during the reporting
evaluation report and new weaknesses identified in                                   period:
recent audits and reviews. However, weaknesses in the
                                                                                     Computer Security Incident Response Team
FDIC’s security operations continued to surface
                                                                                     (CSIRT) Activities: CSIRT developed and implement-
because the FDIC had not fully implemented a com-
                                                                                     ed procedures for identifying and detecting, investigat-
prehensive information security management program.
                                                                                     ing and resolving, tracking, and reporting security inci-
Frequently, security improvements at the FDIC were
                                                                                     dents. CSIRT also communicated with appropriate
the result of a reaction to specific audit and review
                                                                                     external organizations concerning new threats, vulner-
findings, rather than the result of a comprehensive
                                                                                     abilities, solutions, and security incidents that the team
program that provided continuous and proactive iden-
                                                                                     had investigated. However, we reported that the effec-
tification, correction, and prevention of security prob-
                                                                                     tiveness of the program could be improved by consis-
lems. Government oversight agencies, such as the U.S.
                                                                                     tently defining computer security incidents in relevant
General Accounting Office (GAO) and OMB, and other

2
 Our assessment of management controls associated with Contractor and Outside Agency Security was limited to contractor security and did not include an
assessment of the establishment or implementation of controls related to outside agency security. We plan to complete an assessment of these controls as
part of our next annual cycle of information system audits and evaluations.
                                                                                                                                                           19
                                       OIG Identifies GISRA Action Items

     The OIG’s Government Information Security Reform Act report communicated the following actions, in priority
     order, to the FDIC Chairman. These actions should be taken to better ensure adequate security of corporate
     information resources.

     1. Strengthen accountability and authority for information security by (a) appointing a permanent Chief
        Information Officer, (b) ensuring that the individual serving as the Chief Information Officer reports directly
        and solely to the Chairman, and (c) filling key vacancies within the Division of Information Resources
        Management that support information security initiatives and operations;

     2. Make security a key selection factor in the 2003 information technology (IT) capital planning and invest-
        ment control process to ensure that appropriate and cost-effective security controls are considered and
        funded over the life cycle of the FDIC’s IT investments. For 2004, the FDIC should have a completed IT
        Capital Plan;◆

     3. Complete the FDIC IT enterprise architecture to ensure that security controls for components, applications,
        and systems are consistent with current and planned IT architectures;

     4. Continue and complete efforts to define the sensitivity of all corporate data and related business rules and
        ensure that the results are considered when developing and implementing security measures for corporate
        systems and applications;

     5. Strengthen the FDIC’s Acquisition Policy Manual and other Corporation policies and procedures related to
        contractor-provided services by incorporating the security standards prescribed by OMB Circular No. A-130
        and the National Institute of Standards and Technology;

     6. Establish key measures to assess the performance of corporate information security activities against
        established baselines and target performance levels. Such measures should be designed to proactively
        improve security processes and controls;

     7. Define clear roles and responsibilities for all areas related to information security, including general sup-
        port systems, major applications, information security managers, application contingency plans, and the
        pre-exit clearance process for employees and contractors;

     8. Complete and begin using the recently developed Information Security Program Management Report to bet-
        ter track the integration of the FDIC’s information, physical, and operational security activities;

     9. Implement a formal software configuration management program that ensures all required software modi-
        fications, including software patches, are properly tested, approved, and documented in a timely manner;
        and

     10. Complete and formally issue planned revisions to FDIC circulars related to information security.
     ◆
      An IT Capital Plan is one output of the capital planning and investment control process and serves as the implementation plan for the
     budget year. The IT Capital Plan should include a component that demonstrates that IT projects include security controls that are con-
     sistent with the agency’s enterprise architecture. An enterprise architecture is an institutional systems blueprint that defines in both
     business and technological terms an organization’s current and target operating environments and how the organization will transition
     between the two.


20
FDIC policies and guidance, updating various policy          eral guidance, evaluated the adequacy of selected inter-
documents, preparing test plans for vulnerability test-      nal and security controls related to the system. The
ing, better tracking of incidents, increased reporting to    independent public accounting firm concluded that
other FDIC security components, and establishing per-        automated controls in GENESYS were adequate but
formance goals and measures for CSIRT. DIRM                  recommended enhancements to better protect sensitive
agreed to recommended actions.                               data through improved safeguards, password controls,
                                                             and warning banner screens. Management agreed
Information Security Management of FDIC                      with the recommendations in our report.
Contractors: We concluded that the FDIC’s contractor
information security policies and procedures needed          Network Operations Vulnerability Assessment: We
improvement. Specifically, the policies and procedures       engaged PricewaterhouseCoopers Consulting (PwC),
were deficient with respect to the consideration of con-     an independent professional services firm, to perform a
tractor security in acquisition planning and oversight       multi-phase vulnerability assessment of the FDIC’s
of contractor security practices. Further, the               network operations.
Corporation’s implementation of contractor informa-
tion security in acquisition planning, incorporation of      The primary objective of the first phase of PwC’s
information security requirements in FDIC contracts,         assessment was to review past security practices and
and oversight of contractor security practices were not      develop a plan for a more detailed assessment of the
adequate. Finally, contractors generally failed to           vulnerability to FDIC’s network operations during a
implement sufficient security measures. These control        follow-on Phase II. The resulting report from Phase I
weaknesses exposed the FDIC’s information resources          contained seven observations and multiple recommen-
to the risk of unauthorized disclosure, destruction, and     dations intended to improve performance and manage-
modification of sensitive and critical data, and disrup-     ment controls.
tion of system operations.
                                                             DIRM partially concurred with all but two of PwC’s rec-
We made eight recommendations to address the con-            ommendations. DIRM’s written comments resolved
cerns we identified. DIRM and Division of                    some recommendations and caused us, in consultation
Administration (DOA) management agreed to work               with PwC, to revise four others. A substantial number of
jointly to implement corrective actions in response to       recommendations were unresolved at the time of report
our recommendations.                                         issuance; however, as of the end of the reporting period,
                                                             we had reached agreement on all recommendations.
Internal and Security Controls Related to the
General Examination System (GENESYS):                        Integration of Information Security into the Capital
GENESYS is the system used to prepare the report of          Planning and Investment Control Process: The OIG
examination, which contains the results of examina-          and Office of Internal Control Management conducted a
tions and ratings given to financial institutions. The       joint review to evaluate the FDIC’s progress in integrat-
finalized report of examination is provided to the           ing information security into the capital planning and
examined institution and other federal and state exam-       investment control process (CPICP) since the OIG’s first
iners with responsibilities for the institution.             GISRA report was issued in September 2001. That
Institution regulators are charged with maintaining          report identified CPICP as an area that may warrant
strict confidentiality in matters related to the financial   reporting as an individual material weakness. Our
institution examinations. GENESYS contains confiden-         objective was to evaluate the extent to which the FDIC
tial information related to the institution’s financial      integrates security into that process.
condition and management. Our audit, conducted by
an independent public accounting firm under our gen-




                                                                                                             21
Although not issued in final form during the reporting         Projections of calendar year 2002 non-legal contract
period, we issued our draft report to management. We           awards and purchases total 1,400 actions valued at
determined that the FDIC had continued efforts to              approximately $375 million. Information technology
improve its overall IT capital planning process, but           has always been one of the most active areas of con-
more progress was needed in establishing and imple-            tracting. As of September 30, 2002, there were more
menting three key CPICP management controls related            than 415 active information resources management
to security: an enterprise architecture that specifically      contracts valued at approximately $476 million that
addresses security requirements, consideration of              had been awarded in headquarters. Approximately
information security in capital IT investment decisions,       $230 million of this expenditure authority for active
and system life cycle security management. Until these         contracts had been spent and approximately $246 mil-
key management controls are fully established and              lion remained to be used as of that date.
implemented, corporate level decision-makers cannot
                                                               New Approach to Contract Audits
be assured that security is appropriately integrated in
                                                               In coordination with DOA, the OIG developed a new
FDIC systems commensurate with the level of risk
                                                               approach to conducting audits of contractor billings
associated with those systems.
                                                               and completed several audits using the new approach
Because deficiencies in the CPICP were again identi-           during the reporting period. Post-award audits of con-
fied as a potential material weakness in our 2002              tractors focus specifically on contract provisions to
GISRA report, we will carefully evaluate the forthcom-         determine the allowability of costs. Preaward audits
ing management response to this report outlining spe-          focus on the bids received from potential contractors.
cific corrective actions and will discuss this review in       We also can review the contract award process and
more detail in our upcoming semiannual report.                 contractor controls, as needed.

Ensuring Sound Controls and                                    We questioned a total of $528,492 in two post-award
                                                               reports for reasons including unauthorized subcontrac-
Oversight of Contracting                                       tors, unallowable subcontractor mark-ups, incorrect
The private sector provides goods and services to the
                                                               timesheets, unreasonable project management hours
FDIC as needed through contracting to assist the
                                                               billed, and billings for unauthorized labor categories.
Corporation in accomplishing its mission. Contractors
provide assistance in such areas as information tech-          Management’s response for $215,174 of that amount
nology, legal matters, loan servicing, asset manage-           was not due as of the end of the reporting period. For
ment, and financial services.                                  the remainder, management disallowed $34,926.
Maintaining a strong system of internal controls and           We issued three preaward reports. Two of the reports
effective oversight of contracting is critical to the FDIC’s   related to activities regarding the construction of the
success. The Corporation has taken a number of steps           Virginia Square II building and the third addressed
in this regard–training, revisions to the Acquisition          contracting for Local Area Network administration and
Policy Manual, and Contractor Oversight working                mainframe and operational support.
groups. A goal related to contractor oversight was
added to the Corporation’s Annual Performance Plan,            Management has expressed appreciation to the OIG for
which is formulated in accordance with the Government          its efforts in this area of contract auditing.
Performance and Results Act. The Corporation must
sustain such efforts going forward. Additionally, with
increased downsizing and possibly more involvement of
contractors to carry out the FDIC mission, effective over-
sight will become even more critical.




22
Establishing Goals and Measuring                              clearly inform the Congress and the public of the
                                                              results and outcomes of the FDIC’s major programs
Results                                                       and activities, including how the agency will accom-
The Government Performance and Results Act (Results
                                                              plish its goals and measure the results.
Act) of 1993 was enacted to improve the efficiency,
effectiveness, and accountability of federal programs by      OIG Formulates Results Act Review Plan
establishing a system for setting goals, measuring per-       In 1998, the House Leadership formally requested that
formance, and reporting on accomplishments.                   the Inspectors General of 24 executive agencies develop
Specifically, the Results Act requires most federal agen-     and implement a plan for reviewing their agencies’
cies, including the FDIC, to prepare a strategic plan         Results Act activities. The Congress attaches great
that broadly defines each agency’s mission, vision, and       importance to effective implementation of the Results
strategic goals and objectives; an annual performance         Act and believes that Inspectors General have an impor-
plan that translates the vision and goals of the strategic    tant role to play in informing agency heads and the
plan into measurable annual goals with specific indica-       Congress on a wide range of issues concerning efforts
tors and targets; and an annual performance report            to implement the Results Act. We believe the congres-
that compares actual results against planned goals.           sional views on such a review plan represent an appro-
                                                              priate direction for all Offices of Inspector General.
The Corporation’s strategic plan and annual perform-
ance plan lay out the agency’s mission and vision and         OIG’s Results Act Review Plan
articulate goals and objectives for the FDIC’s three major    The FDIC OIG is fully committed to taking an active
program areas of Insurance, Supervision, and                  role in the Corporation’s implementation of the Results
Receivership Management. The plans focus on four              Act. We have developed a review plan to help ensure
strategic goals that define desired outcomes identified for   that the Corporation satisfies the requirements of the
each program area: (1) Insured Depositors Are Protected       Results Act and maintains systems to reliably measure
from Loss Without Recourse to Taxpayer Funding,               progress toward achieving its strategic and annual per-
(2) FDIC-Supervised Institutions Are Safe and Sound,          formance goals. Our review plan consists of the fol-
(3) Consumers’ Rights Are Protected and FDIC-                 lowing three integrated strategies:
Supervised Institutions Invest in Their Communities, and      Linking Planned Reviews to the Results Act. We will
(4) Recovery to Creditors of Receiverships Is Achieved.       link planned reviews to corporate strategic goals and
Through its annual performance report, the FDIC is            provide appropriate Results Act coverage through audits
accountable for reporting actual performance and              and evaluations. As part of this strategy, our planning
achieving these strategic goals, which are closely linked     effort this year will seek to align our audit work more
to the major issues discussed in this semiannual report.      closely with the Corporation’s strategic plan.
The Corporation has made significant progress in              Targeted Verification Reviews. We will maintain a
implementing the Results Act and will continue to             program of independent reviews to periodically evalu-
address the challenges of developing more outcome-            ate the adequacy and reliability of selected information
oriented performance measures, linking performance            systems and data supporting FDIC performance
goals and budgetary resources, implementing process-          reports. The OIG has developed a standard work pro-
es to verify and validate reported performance data,          gram to conduct these evaluations.
and addressing crosscutting issues and programs that
affect other federal financial institution regulatory         Advisory Comments. We will continue our practice of
agencies. The FDIC is committed to fulfilling both the        providing advisory comments to the Corporation
requirements of the Results Act and congressional             regarding its update or cyclical preparation of strategic
expectations that the performance plans and reports           and annual performance plans and reports.




                                                                                                              23
Examples of OIG audit findings and recommendations          The OIG will continue to develop and refine its inte-
during the reporting period that are linked to Result       grated oversight strategy to help ensure that the FDIC’s
Act issues and concepts include the following:              Results Act-related efforts fully conform to the spirit
                                                            and intent of the Act. We plan to continue to work with
We issued a report on the FDIC’s receivership termina-      the Corporation to improve the FDIC’s performance
tion activity. We concluded that DRR was complying          measurement and reporting through our audits, evalu-
with policies and procedures for terminating receiver-      ations, and management advisory reviews and analy-
ships and data contained in the Receivership                ses. The OIG will also continue to monitor and review
Termination System for the sampled receiverships            legislation proposed in the Congress to amend the
were accurate and complete. We identified one area of       Results Act and will actively participate to refine appro-
concern, however, related to DRR annual performance         priate OIG Results Act roles, responsibilities, and activ-
planning and receivership termination activity.             ities through the President’s Council on Integrity and
                                                            Efficiency and the interagency groups it sponsors.
Specifically, DRR’s 2002 annual performance planning
indicators and targets did not cover all significant        Addressing Human Capital Issues
receivership termination activities. Specifically, a 2002   The FDIC has been in a downsizing mode for the past
performance indicator and target for terminating            10 years as the workload from the banking and thrift
receiverships initiated prior to 2000 was not developed.    crises of the late l980s and 1990s has been accom-
Pre-2000 receiverships accounted for 157 of the 168         plished. During the reporting period, a number of divi-
active receiverships in inventory at January 1, 2002.       sion mergers and reorganizations took place and the
We recommended that DRR establish an interim 2002           Corporation concluded its 2002 buyout/retirement
performance indicator and targets that include all          incentive programs. As noted in its 3rd quarter Letter
active receiverships when formulating future annual         to Stakeholders, these most recent incentive programs
performance plans. DRR concurred with the two rec-          achieved a reduction of 699 staff and $80 million pro-
ommendations in our report and planned corrective           jected savings in future operating costs. In total, over
action in response. (Also see write-up related to           the past 10+ years, the workforce (combined from the
Third-Party Corrective Actions.)                            FDIC and the Resolution Trust Corporation) has fallen
OIG Reviews FDIC 2001 Program                               from approximately 23,000 in 1992 to 5,500 as of
Performance Report                                          September 30, 2002.
During this reporting period, the OIG reviewed and
                                                            By June 2003, the Corporation hopes to substantially
provided advisory comments to management on the
                                                            complete required downsizing and correct existing
FDIC’s draft 2001 Program Performance Report. The
                                                            skills imbalances. To do so, the Corporation continues
purpose of our review was to provide suggestions for
                                                            to carry out other features of its comprehensive pro-
enhancing the Corporation’s performance report based
                                                            gram such as solicitations of interest, reassignments,
on our knowledge and OIG work related to the Results
                                                            retraining, outplacement assistance, and possible
Act. In addition, we reviewed the report to determine if
                                                            reductions-in-force. As the Corporation adjusts to a
it was in compliance with the Results Act and related
                                                            smaller workforce, it must continue to ensure the
OMB guidance. We noted that the draft performance
                                                            readiness of its staff to carry out the corporate mission.
report was not clear with respect to reporting on
receivership termination activity and suggested that it     The Corporation has also predicted that almost 20 per-
be clarified. In addition, we suggested that the FDIC       cent of FDIC employees will be eligible to retire within
performance report include a reference to the OIG per-      the next 5 years. The Corporation must continue to
formance report in accordance with OMB guidance.            conserve and replenish the institutional knowledge and
Management agreed with our comments and incorpo-            expertise that has guided the organization over the past
rated many of our suggestions into the final report that    years. Hiring and retaining new talent will be impor-
was sent to the Congress and OMB.


24
tant, and hiring and retention policies that are fair and                          ensure that the federal government functions in the most
inclusive remain a significant component of the corpo-                             economic, efficient, and effective manner possible.
rate diversity plan.
                                                                                   In its Model of Strategic Human Capital Management,
                                                                                                                                   3
An important corporate consideration is determining                                GAO identified three cornerstones that relate to the
where FDIC employees will be housed over the long-                                 activities we addressed in our evaluation:
term. In that regard, the Corporation's Board of
Directors approved construction of a new nine-story                                  • Leadership commitment to human capital
building at its Virginia Square office complex in                                       management,
Northern Virginia. This building will house FDIC staff
                                                                                     • Strategic human capital planning, and
for the most part now working in leased space in the
District of Columbia. The expansion will cost approxi-                               • Acquiring, developing, and retaining talent.
mately $111 million; however, the Corporation antici-
pates substantial savings in the long run—more than                                In our memorandum, we communicated our observa-
$78 million (in today’s dollars) over the next 20 years.                           tions on past corporate activities in these areas and
At DOA’s request, the OIG conducted a preaward                                     focused on on-going or planned initiatives, pointing out
review to ensure that the process for soliciting and hir-                          where we believe the Corporation should continue to
ing contractors to perform the work of constructing the                            concentrate its efforts.
new site is carefully controlled and properly carried                              Leadership Commitment
out. (See earlier write-up on preaward reviews.)                                    • The Corporation’s Human Resources Committee
                                                                                      (HRC), comprised of eight executives from through-
The Corporation’s organizational make-up has been
                                                                                      out the Corporation, is a key driver of the
altered dramatically, and more change is in store.
                                                                                      Corporation’s human capital initiatives to stream-
Designing, implementing, and maintaining effective
                                                                                      line the organization, complete downsizing, estab-
human capital strategies are critical priorities and
                                                                                      lish clear performance expectations and incentives
must be the focus of sustained corporate attention.
                                                                                      for executives, and build a flexible workforce
OIG Evaluates Selected Corporate Human                                                through a Corporate University and job rotation
Capital Strategies                                                                    program. The HRC is responsible for developing
The OIG initiated an evaluation of aspects of the                                     policy recommendations for the Chief Operating
Corporation’s employee training and development                                       Officer (COO), Chief Financial Officer (CFO), and
efforts. At the time we were conducting our work, the                                 the Deputy to the Chairman, as well as monitoring
Corporation was in the midst of announcing several                                    the implementation of the Corporation’s human
new initiatives and implementing a number of organi-                                  capital initiatives.
zational changes that impacted both its training and
development and overall human capital programs. As                                   • The Corporate University is one of the key initia-
a result, we determined that it was not an appropriate                                  tives to transform the FDIC. It will be organization-
time to review these activities. Because we had also                                    ally placed in the newly designed Human
gathered information associated with the FDIC’s over-                                   Resources Branch–a merger of the Training and
all human capital strategy, we issued a memorandum                                      Consulting Services Branch and the Personnel
to management to communicate that information as we                                     Services Branch–within DOA.
terminated our review.
                                                                                     • The FDIC is recruiting a human capital professional
Our memorandum noted that last year, GAO added strate-                                  as Associate Director of the Human Resources
gic human capital management to its list of high-risk gov-                              Branch. This position will report to the Deputy
ernment programs as an area that needs attention to                                     Director, DOA, who is also the Chairman of the
3
 GAO’s Model of Strategic Human Capital Management identified a fourth cornerstone “Results-Oriented Organizational Culture,” which addresses empowerment
and inclusiveness of employees and linking individual performance to organizational goals.


                                                                                                                                                     25
   HRC. The Associate Director’s responsibilities will      • The Chairman’s announcements of the Corporate
   include the development of a comprehensive                 University and job rotation program will build on
   human capital program for the Corporation.                 the Diversity Strategic Plan foundation and help
Strategic Workforce Planning                                  create a broader corporate perspective through
 • The Corporation conducted an FDIC Human Capital            training and employee development.
   Self-Assessment based on GAO guidelines, drafted a
   Human Resources Strategic Plan, and included vari-
                                                            • The Corporate University Steering Committee is
                                                              currently developing its strategy for the Corporate
   ous human capital initiatives in both the FDIC
                                                              University to best fit the FDIC’s mission and opera-
   Strategic Plan and the FDIC 2002 Annual Plan.
                                                              tions. The Committee is also consulting with
   However, the FDIC has not yet finalized its develop-
                                                              private-sector corporate universities, academic
   ment of a fully integrated human capital frame-
                                                              institutions, and other experts to identify best
   work, such as the Human Resources Strategic Plan
                                                              practices. The Steering Committee anticipates
   could provide. The HRC indicated that the draft
                                                              completing its work and presenting an options
   Human Resources Strategic Plan would be revisited
                                                              paper to the Chairman by the end of 2002.
   this fall before presenting it to the COO, CFO, and
   Deputy to the Chairman. We consider completion          Because human capital management is critical to the
   of this plan to be a critical priority for the FDIC.    Corporation’s future success, we will continue to mon-
                                                           itor the Corporation’s progress and provide audit
 • The Corporation’s annual planning process address-      coverage of the program and initiatives, as we deem
   es workforce planning in its core staffing analysis.
                                                           appropriate.
   However, the Corporation’s current practices do not
   include a formalized corporate-wide skill gap           Containing Costs and Assessing
   analysis for long-term human capital planning pur-
                                                           Business Processes
   poses. In its draft Human Resources Strategic Plan,
                                                           The Corporation continues efforts to identify and
   the Corporation recognized that the FDIC does not
                                                           implement ways to contain and reduce costs, either
   have such a process to compare the skills possessed
                                                           through more careful spending or assessing and mak-
   by the workforce against future needs and identify
                                                           ing changes in business processes to increase efficien-
   strategies to address those gaps.
                                                           cy. As steward for the BIF and the SAIF, the FDIC
Acquiring, Developing, and Retaining Talent                looks for cost reductions and efficiency improvements
 • DOA’s Training and Consulting Services Branch, as       to minimize the draw on the funds.
   the principal training and employee development
   organization, works with the divisions and offices to   The Corporation has taken steps to increase emphasis
   identify the best ways to address their learning        in this area. As discussed in the previous section of
   needs and develop core training programs.               this report, savings will result from the Corporation’s
                                                           planned building of its new Virginia Square site. It is
 • The strategies embodied in the FDIC Diversity           also expected that the Corporation’s New Financial
   Strategic Plan include enhancing the corporate          Environment will result in lower costs, better function-
   recruiting program, creating developmental oppor-       ality, and enhanced efficiency. Several other initiatives
   tunities, enhancing the internal and external           are in process to better understand what the various
   selection processes, and addressing benefit and         business processes and activities within the FDIC cost,
   workplace issues.                                       how they can be made more efficient, and how they
                                                           compare to private and public sector entities. The
                                                           Corporation may also need to recognize and plan for
                                                           unmet needs which can add to operating costs. Such




26
needs may include, for example, further ensuring          Ensuring Security of Physical and
information resources security and maintaining essen-
tial physical security.
                                                          Human Resources
                                                          Largely in light of the events of September 11, 2001, we
Since being named head of the FDIC, FDIC Chairman         identified an emerging issue that the FDIC needed to
Powell has underscored the importance of efficiency       address: the security of the FDIC’s physical and
and effectiveness of the FDIC in various communica-       human resources. The Corporation has devoted con-
tions with FDIC employees. Certainly, the                 siderable attention to these areas since the tragic
Corporation’s organizational streamlining and down-       events of that day and continues to do so. It has
sizing were designed to achieve such efficiencies and     enhanced important physical security features of its
economies. Additionally, the Corporation is evaluating    properties. It has worked to keep employees informed
the cost of certain corporate operations against appro-   of security matters and events occurring in the
priate benchmark organizations. The results of such       Washington, D.C., area and field offices that may
studies will help the Corporation identify areas in       impact employee safety and security. It also developed
which its costs may be higher than other organizations    an Emergency Response Plan on which the OIG pro-
and potential “best practices” to reduce these costs.     vided extensive comments to the Chief Operating
                                                          Officer during the previous reporting period.
In this connection, the Corporation is implementing a
service costing initiative—new procedures to charge       We completed fieldwork on our evaluations of the
receiverships for services provided by the Corporation    FDIC’s physical security of Washington, D.C., area and
by applying standard rates. This initiative should also   regional and field office facilities during the reporting
result in improved allocation of receivership expenses.   period and issued two reports conveying our results.
The OIG is conducting a review of data quality of serv-   Evaluation of Physical Security for the FDIC’s
ice costing to determine whether adequate controls        Washington, D.C. Area Facilities
exist to ensure the accuracy, timeliness, and complete-   We issued a report on the FDIC’s physical security pro-
ness of receivership-related data used by the service     gram and its implementation in the Corporation’s
costing system. Additionally, the OIG plans future        Washington, D.C. metropolitan area facilities, including
work on service costing billing rates to determine        Virginia Square. Generally the Corporation’s program
whether the rates developed have been adequately          addresses perimeter security, entry security, interior
supported and controls are in place to ensure that        security, and security planning—the four broad areas
receiverships are being accurately billed. Our results    covered by Department of Justice-recommended mini-
will be discussed in future semiannual reports.           mum security standards. However, we noted several
                                                          areas where the Corporation could improve its physical
   The FDIC’s Travel Card Program                         security program. Specifically, the Corporation needed
                                                          to require that a risk level be assigned to each FDIC
   We conducted an audit of the Corporation’s travel      building and that the minimum security standards
   card program and concluded that the Corporation        deemed practicable for each building be documented.
   has taken necessary steps to implement effective       Security risk assessments of FDIC facilities also needed
   internal control over the program. The FDIC’s poli-    to be conducted in accordance with time frames pre-
   cies and monitoring activities, along with the Bank    scribed by FDIC policy. Finally, and this is a point that
   of America’s contractual travel card restrictions,     DOA recognized and acted upon, the initial design and
   serve to mitigate the risk of abuses and potential     assignment of responsibilities for emergency evacua-
   damage to the public’s confidence in the               tion to both the Physical Security Unit and the Health
   Corporation as financial institution supervisor or     Safety and Environmental Unit was confusing, and
   insurer.                                               responsibilities were reassigned solely to the Physical




                                                                                                           27
Security Unit. We made 11 recommendations and             and Keystone Bank—as presented in prior semiannual
offered several suggestions to better ensure the safety   reports.
and security of individuals and property. The actions
already taken or planned by the Corporation are           The issues involve interrelated roles of management
responsive to our concerns.                               (including Boards of Directors and Audit Committees),
                                                          independent auditors, and regulators. Management is
Security for Field Sites                                  primarily responsible for the reliability of financial
We also reported that regional and field offices had      reports with auditors providing an independent audit
implemented perimeter, entry, and interior security       function and regulators relying on the financial data.
measures that met or exceeded the Department of
Justice’s recommended minimum standards for the           Affected regulators include the Securities and
facilities’ assigned security levels. DOA had performed   Exchange Commission as well as the FDIC and other
vulnerability assessments of regional and field office    financial institution regulators. The need for reliable
facilities and implemented recommended security           financial data affects the ability of regulators to effec-
measures identified from those assessments. Each of       tively achieve their oversight missions. To the extent
the 15 offices in our sample had established proce-       that the financial reporting of businesses (including
dures for responding to and reporting on emergencies      financial institutions) is not reliable, the regulatory
and other security-related incidents. However, differ-    processes and mission achievement can be adversely
ences existed among the various offices regarding the     affected. Financial institution regulators are affected
types of security-related incidents reported for inclu-   by the quality of reporting of financial institutions and
sion in the FDIC’s incident reporting and investigation   businesses transacting with financial institutions.
system. This inconsistent reporting limited the FDIC’s    Critical operational processes of financial institution
ability to use the data for detecting trends that may     regulators can be adversely affected. Essential
require additional security measures. We made two         research and analysis (used for economic analysis and
recommendations to improve the completeness and           decision-making) and bank supervision (examina-
usefulness of data contained in the system, and man-      tions) can be complicated and potentially compromised
agement agreed with both of them.                         by poor quality financial reports and audits.

Update on Emerging Issue: The                             In addition to supervision safety and soundness issues,
Quality of Bank Financial Reporting                       the FDIC, in its roles as receiver and insurer, is poten-
                                                          tially affected by financial reporting and audit quality,
and Auditing                                              regardless of whether the FDIC is the primary federal
During the previous reporting period, the OIG identi-
                                                          regulator. Receivership management operations, rely-
fied the following emerging issue as warranting FDIC
                                                          ing on accounting and auditing contractors, can be
management's attention.
                                                          adversely affected. Potentially, the insurance funds can
Recent highly publicized business failures, including     be affected, for example, by financial institution and
financial institution failures, have raised significant   other business failures precipitated in whole or in part
questions about the quality of financial reporting and    by financial reporting irregularities.
auditing of these businesses. Various dimensions of
                                                          The financial reporting and audit quality issues are
this issue have been, and continue to be, widely dis-
                                                          complicated by a number of interrelated risk factors,
cussed and reported in various forums, most notably
                                                          including: auditor independence; complexity and
with congressional hearings on the failure of Enron
                                                          sophistication of business structures and transactions;
Corporation. Aspects of the problem as it relates to
                                                          adequacy and complexity of standards; fraud; auditors’
financial institutions have been documented in rela-
                                                          document retention procedures; adequacy of auditor
tively recent OIG work on bank failures—Superior Bank




28
oversight; and qualifications and fitness of Audit         sions. The DSC subsequently joined the group to
Committees, Boards of Directors, and Officers.             ensure coordination with the independence initiatives
                                                           under consideration, such as the independence
Corporation Takes Steps to Address Issue
                                                           requirements and interpretations of the Securities and
The Corporation has initiated actions to address many
                                                           Exchange Commission and the Sarbanes-Oxley Act of
aspects of the bank financial reporting and audit quali-
                                                           2002 as it affects accounting firms’ work in insured
ty issue that we discussed in our last semiannual
                                                           institutions.
report. The Corporation’s 2001 Annual Report to the
Congress (under the Chief Financial Officers Act),         Corporate initiatives, highlighted below, address:
issued during this period, discussed this matter as an     independence requirements for corporate contracts
emerging issue. The Corporation also initiated several     with accounting firms; auditor independence for
key actions to help ensure the quality of financial        insured institutions; disciplining accountants; and
reporting and auditing of financial institutions.          additional Sarbanes-Oxley Act considerations.
The Corporation’s actions considered the impact of         Independence Requirements for Corporate
recent significant changes to standards and policies for   Contracts with Accounting Firms
auditors. These changes resulted from the recent           The new GAO independence standards include the fol-
Sarbanes-Oxley Act of 2002 and new government              lowing two overarching principles:
auditing standards for independence issued by the
Comptroller General of the United States:                   • Auditors should not perform management
                                                              functions or make management decisions; and
 • The Sarbanes-Oxley Act of 2002 established dramat-
   ic changes for publicly held companies and their         • Auditors should not audit their own work or provide
   auditors to protect investors and improve the accu-        nonaudit services in situations where the nonaudit
   racy and reliability of corporate financial reporting      services are significant/material to the subject mat-
   and disclosures. Among other provisions, the Act           ter of audits.
   revised auditor independence rules, created a           To address the overarching independence principles
   Public Company Accounting Oversight Board,              involving corporate contracts with accounting firms,
   revised corporate governance standards, and signif-     the following key actions have been taken:
   icantly increased the criminal penalties for viola-
   tions of securities laws.                                • Revise ethics regulation to address lack of inde-
                                                              pendence as a conflict of interest. In May 2002,
 • GAO published revised independence standards in            the FDIC Board approved an interim final rule (12
   January 2002, effective for governmental audits            CFR Part 366). A final version of the rule has been
   beginning on or after January 1, 2003.                     prepared for FDIC Board approval.
To address these issues, the Corporation established a      • Address significance and materiality for nonau-
joint group that included the Office of Internal Control      dit services. The Legal Division will work with
Management, DOA, and the OIG. The OIG’s role was              divisions/offices to prepare factors to be considered
to provide independent technical advice. The group’s          in determining whether nonaudit services are sig-
initial objective was to determine the actions that the       nificant/material, to assess compliance with GAO’s
Corporation should take regarding its use of services         overarching principle.
from accounting firms to ensure compliance with the
new GAO independence standards. The Corporation’s
Legal Division and the DRR also joined the group to
address contract issues within their respective divi-




                                                                                                           29
 • Address expert witness contracts.      The Legal           Auditor Independence Requirements for Insured
   Division uses expert witnesses from accounting             Institutions
   firms. These firms will be reviewed to ensure there        The FDIC’s DSC, in coordination with other financial
   are no conflicts of interest. In addition, the guid-       regulatory agencies, has a number of initiatives under-
   ance for outside counsel will be updated, as neces-        way related to audits of insured banking institutions:
   sary.
                                                              Under FDIC regulations (12 CFR Part 363) and
 • Address contracts of failed institutions. Guidance         explanatory guidelines and interpretations, auditors of
   is being developed to address auditor independence         insured institutions with $500 million or more in assets
   for contracts with accounting firms inherited from         must “meet the independence requirements and inter-
   failed institutions.                                       pretations of the SEC and its staff.” As a result of the
                                                              Sarbanes-Oxley Act of 2002, DSC believes that auditors
 • Use Ethics Conflicts Committee.      The Legal             are prohibited from performing both internal audit out-
   Division’s ethics conflicts committee, established to      sourcing and consulting work for external audit clients.
   address potential ethical conflicts of interest, will be
   convened as necessary to address auditor independ-         An interagency working group, headed by the FDIC,
   ence conflicts.                                            had been revising the guidance on auditor independ-
                                                              ence in the December 1997 “Interagency Policy
 • Update Acquisition Policy Manual (APM).      DOA           Statement on the Internal Audit Function and its
   will update the APM to address auditor independ-           Outsourcing” in response to the SEC's adoption of
   ence. The APM establishes a consolidated and uni-          revised independence rules in November 2000. As a
   form set of policies and procedures for procuring          result of the Sarbanes-Oxley Act of 2002, the guidance
   goods and services on behalf of the Corporation.           will require further revision. The following actions are
                                                              among those being considered:
 • Update standard contracts.     DOA and the Legal
   Division will ensure that updated standard con-             • Advise institutions with $500 million or more in
   tracts address lack of independence as a conflict of          total assets and all publicly-held institutions that
   interest. Also, contractor certifications will be             they should follow the requirements of the new
   required to ensure auditor independence standards.            Sarbanes-Oxley Act;

 • Consider automated tracking mechanism.         DOA          • Encourage institutions with under $500 million in
   will consider the feasibility of using an automated           total assets that are not publicly held to follow the
   mechanism to track the various types of auditor               requirements of the new Sarbanes-Oxley Act; and
   services being provided to assist in monitoring
   potential independence issues.                              • Advise all state-chartered institutions to also follow
                                                                 any state laws or regulations with regard to auditor
Also, the OIG is updating its internal policies and pro-         independence.
cedures to ensure appropriate compliance with
                                                              Disciplining Accountants Who Perform
Generally Accepted Government Auditing Standards,             Audit Services
including independence standards. The OIG will also           For institutions with $500 million or more in total
address the work of accounting firms conducting work          assets - Section 36 of the Federal Deposit Insurance Act
under OIG contracts.                                          requires the federal banking agencies to jointly issue
                                                              rules of practice for removing, suspending, and barring
                                                              accountants from performing audit services for institu-
                                                              tions subject to Part 363. An interagency working




30
group has been drafting proposed rules of practice.       The OIG will continue to monitor and assess this issue
These rules would permit the agencies to                  for consideration in planning future audit and over-
suspend/remove/bar independent public accountants         sight work. In this regard, one ongoing audit is cur-
from performing services under Section 36 for good        rently reviewing examiner reliance on the work of
cause. The rules of practice would define “good cause.”   independent public accountants.

For all institutions - For several years, the FDIC has
maintained a program of reporting apparent noncom-           Agreement with GAO Regarding
pliance by bank auditors with applicable professional
standards (including Generally Accepted Auditing
                                                               the Corporation’s Financial
Standards (GAAS)) to the American Institute of                   Statement Audit Work
Certified Public Accountants (AICPA) and state boards
of accountancy. The AICPA as a professional associa-
                                                             During the reporting period, we reached agreement
tion investigates GAAS infractions and may discipline
                                                             with the General Accounting Office (GAO) regarding
accountants. Disciplinary action frequently involves
                                                             the level of OIG resources available for the 2002
additional education for the disciplined person but may      financial statement audit work and the specific
ultimately result in revocation of an accountant’s           areas that the OIG would accomplish. Based on
AICPA membership. State boards are able to revoke an         earlier discussions with GAO, we agreed that the
accountant’s license to practice; however, followup on       OIG would commit three staff members and perform
referrals by some boards may be constrained by finan-        the receivables from bank/thrift resolutions and
cial or staff limitations.                                   receivership receipts audit work. We will conduct
                                                             the work in accordance with the GAO’s Generally
Additional Sarbanes-Oxlely Act Considerations                Accepted Government Auditing Standards and the
Where the FDIC has authority under Section 36 of the         GAO/President’s Council on Integrity and Efficiency
Federal Deposit Insurance Act, the FDIC is considering       Financial Audit Manual. This approach will enable
whether to amend Part 363 to be consistent with the          the GAO to rely on our work for its opinion on each
Sarbanes-Oxley Act by:                                       fund’s financial statements and internal control.
 • Requiring independent public accountants to be            We also agreed that one OIG staff member will
   registered accounting firms;
                                                             assist GAO in the information systems testing area
 • Accepting registration applications, annual reports,      and have discussed a plan for the OIG to assume
   and inspection reports of registered accounting           complete responsibility for this area in the future.
   firms in lieu of peer review reports;                     In this regard, we are working on a multi-year strat-
                                                             egy for performance of the information systems
 • Requiring that the independent public accountant          audit requirements starting in 2003.
   retain audit documentation and any needed com-
   puter programs for a period of 7 years; and

 • Adding the duties and responsibilities of the audit
   committee outlined in the new Act.




                                                                                                           31
      The FDIC Stands to Recover Undelivered State
        Tax Refunds Belonging to FDIC-Managed
              Failed Financial Institutions
     During the reporting period we issued a follow-up memorandum to the
     Director of the Division of Finance and the Director of the Division of
     Resolutions and Receiverships concerning an earlier review we conducted
     of undelivered tax refunds. Our earlier review was done to determine
     whether state revenue or tax departments were holding undelivered tax
     refunds that belonged to failed financial institutions or their subsidiaries.
     As a result of that review, we collected about $65,000 in undelivered tax
     refunds from the state of Massachusetts which we forwarded to corporate
     officials for posting to appropriate accounting records. We further request-
     ed state tax officials in New York and California to research their records to
     determine whether their states were holding any undelivered or unclaimed
     tax refunds belonging to FDIC-managed entities.

     Tax officials in New York reported back that their research did not identify
     any such refunds. The tax database they reviewed, however, only covered
     the past 3 years for refunds. On the other hand, the Tax Counsel for the
     California Franchise Tax Board reported that California had identified 22 tax
     refunds totalling $1,576,411 that belonged to FDIC-managed institutions.
     The majority of the amount belonged to a single institution–Guardian Federal
     Savings Association of Huntington Beach, California. The Tax Counsel
     believes that the FDIC will be able to recover $1,559,418 (99 percent of the
     total) from 6 of the 22 tax refunds held by state tax officials and added that
     the state would also pay interest to the FDIC for the period that the states
     held the refunds. Refunds for the remaining 16 institutions may not be
     collectable because California has suspended the corporate powers of
     these entities.

     Our memorandum advised that the Corporation should seek to promptly
     recover the undelivered tax refunds. Additionally, we suggested that the
     Corporation follow up with the state of New York to determine whether
     information on undelivered tax refunds from the late 1980s and early 1990s
     can be accessed for purposes of identifying refunds owed to the FDIC. We
     also suggested that the FDIC determine a risk-based approach to reviewing
     other states for undelivered tax refunds. We informed the Corporation that
     we considered the $1,559,418 as a potential monetary benefit to the
     Corporation. The Corporation has taken steps to address each of our
     suggested actions.




32
                                                                                                        ★
                                                                                                                              ★★
Investigations
                                                                                Joint Efforts
             Investigative Statistics                                           The OIG works closely with U.S. Attorney’s Offices
           April 1, 2002 – September 30, 2002                                   throughout the country in attempting to bring to justice
                                                                                individuals who have defrauded the FDIC. The pros-
                                                                                ecutive skills and outstanding direction provided by
 Judicial Actions:                                                              Assistant United States Attorneys with whom we work
   Indictments/Informations . . . . . . . . . . . . . . . . . . . .14           are critical to our success. The results we are report-
                                                                                ing for the last 6 months reflect the efforts of U.S.
   Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17    Attorney’s Offices in the District of Massachusetts, the
 OIG Investigations Resulted in:                                                Southern District of New York, the Eastern District of
                                                                                New York, the Southern District of Illinois, the
   Fines of . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .$8,800   Southern District of Iowa, the Southern District of West
                                                                                Virginia, the Eastern District of Tennessee, the
   Restitution of . . . . . . . . . . . . . . . . . . . .$819,166,126
                                                                                Northern District of Alabama, the Southern District of
   Other Monetary Recoveries of . . . . . . . . . . . .$689,691                 Florida, the Western District of Oklahoma, the
                                                                                Northern District of Texas, the Western District of
   Total . . . . . . . . . . . . . . . . . . . . . . . . . . .$819,864,617      Texas, and the Central District of California.
 Cases Referred to the Department of
                                                                                Support and cooperation among other law enforcement
  Justice (U.S. Attorney) . . . . . . . . . . . . . . . . . . . . .11
                                                                                agencies is also a key ingredient for success in the
 Referrals to FDIC Management . . . . . . . . . . . . . . . . .3                investigative community. We frequently “partner” with
                                                                                the Federal Bureau of Investigation (FBI), the Internal
 OIG Cases Conducted Jointly                                                    Revenue Service (IRS), Secret Service, and other law
 with Other Agencies . . . . . . . . . . . . . . . . . . . . . . . .50          enforcement agencies in conducting investigations of
                                                                                joint interest.

The Office of Investigations (OI) is responsible for carry-                     Results
ing out the investigative mission of the OIG. Staffed                           Over the last 6 months, OI opened 23 new cases and
with agents in Washington, D.C., Atlanta, Dallas, and                           closed 12 cases, leaving 113 cases underway at the end
Chicago, OI conducts investigations of alleged criminal                         of the period. Our work during the period led to indict-
or otherwise prohibited activities impacting the FDIC                           ments or criminal charges against 14 individuals and
and its programs. As is the case with most OIG offices,                         convictions of 17 defendants. Criminal charges
OI agents exercise full law enforcement powers as spe-                          remained pending against 15 individuals as of the end
cial deputy marshals, under a blanket deputation agree-                         of the reporting period. Fines, restitutions, and recov-
ment with the Department of Justice. OI’s main focus is                         eries stemming from our cases totaled almost
investigating criminal activity that may harm or threaten                       $820 million. The following are highlights of some of
to harm the operations or the integrity of the FDIC and                         the results from our investigative activity over the last
its programs. In pursuing these cases, our goal, in part,                       6 months:
is to bring a halt to the fraudulent conduct under investi-
                                                                                Fraud Arising at or Impacting Financial
gation, protect the FDIC and other victims from further                         Institutions
harm, and assist the FDIC in recovery of its losses.                            Update on Prosecutions Resulting from
Another consideration in dedicating resources to these                          Investigation of the Failure of the First National
cases is the need to pursue appropriate criminal penal-                         Bank of Keystone
ties not only to punish the offender but to deter others                        As has been the case in our last several reports, we are
from participating in similar crimes.                                           again reporting results emanating from the investiga-



                                                                                                                                33
tion involving the failure of the First National Bank of     • made false entries in the records of the bank to con-
Keystone (West Virginia). The investigation and prose-         ceal financial losses that the bank sustained from a
cutions involving Keystone are being conducted by a            complicated loan securitization program that led to
multi-agency task force comprised of special agents of         the bank’s insolvency,
the FDIC OIG, FBI, and IRS and prosecutors from the
United States Attorney’s Office for the Southern District    • conspired with other uncharged former officials of
of West Virginia and the U.S. Department of Justice.           the bank to launder the proceeds of the bank fraud
The FDIC Division of Resolutions and Receiverships             on at least 335 occasions totaling more than
has also provided valuable assistance in support of the        $27 million, and
task force investigations.
                                                             • engaged in two other money laundering transac-
An examination that was conducted by the Office of the         tions totaling approximately $10.7 million.
Comptroller of the Currency in 1999 uncovered infor-
mation that ultimately resulted in the closure of the       At the time of her most recent sentencing, the defen-
First National Bank of Keystone (Keystone) on               dant was already in prison serving sentences of 4 years
September 1, 1999. Based on the estimated losses to         and 9 months that she had received in July 2000 fol-
the insurance fund attributable to the Keystone failure,    lowing her conviction on charges of obstructing the
it is one of the ten costliest bank failures since 1933.    examination of the bank that ultimately resulted in its
                                                            closure and 22 years and 7 months that she had
The investigation initially targeted the attempts of the    received in March 2002 following her conviction on
bank principals to obstruct the examination of the          charges of embezzlement, mail fraud, and conspiracy
bank. Following the successful prosecution of several       relating to her involvement in the estate of the institu-
of the bank officers on obstruction charges, the task       tion’s former president. That sentencing also included
force turned its focus to the underlying fraud in the       an order that she pay $6,120,000 in restitution.
operation of the bank that led to the bank’s failure.
During the current reporting period, the former senior      To date, four of the former officers of the bank have
executive vice president and chief operating officer of     been convicted and sentenced for obstructing the
Keystone was sentenced on May 29, 2002, in the U.S.         examination of the bank. Two of those same officers
District Court for the Southern District of West Virginia   along with three other officers have been convicted on
to a total of 27 years and 3 months’ incarceration to be    various other charges relating to illegal activity at the
followed by 3 years’ probation. The incarceration is to     bank, including bank fraud, money laundering, embez-
be served concurrently with her other sentences. She        zlement, mail fraud, insider trading, and filing false
was also ordered to make restitution in the amount of       income tax returns. Sentencings thus far have totaled
$812,690,627.                                               over 88 years’ confinement, over 32 years’ probation,
                                                            fines of $124,500, and over $1.3 billion in court-ordered
The defendant had previously entered a plea of guilty       restitution.
on March 4, 2002, to a criminal information charging
her with bank fraud and conspiracy to commit money          The Keystone Task Force is also pursuing a related
laundering. Those charges were based on an investi-         investigation involving the theft of assets under control
gation disclosing that she:                                 of the United States as a result of the failure of
                                                            Keystone. On June 5, 2002, a former prison inmate
 •   diverted monies from the bank’s general ledger         with the senior executive vice president and chief oper-
     accounts to her accounts and those of others,          ating office of Keystone was indicted by a federal grand
                                                            jury in the Southern District of West Virginia for violat-
                                                            ing several federal statutes in connection with an




34
                                 alleged scheme to fraud-      Former Director and Former Vice President of
                                 ulently obtain and resell     Hartford-Carlisle Savings Bank Sentenced, and
                                 assets. As a part of the      Former President and Two Former Board Members
                                 prosecution of the cases      Plead Guilty to Bank Fraud-Related Activities
                                 against the former            Investigations involving the now-defunct Hartford-
                                 Keystone bank officer, an     Carlisle Savings Bank (HCSB), Carlisle, Iowa, culmi-
                                 injunction was obtained       nated in several successful prosecutions during this
                                 by the government to          reporting period. HCSB was an FDIC-regulated insti-
                                 protect the value of assets   tution that was closed on January 14, 2000, by the Iowa
                                 that might be used to sat-    Division of Banking and was reopened the next day
                                 isfy any judgment             under new ownership. State banking regulators ques-
                                 obtained by the FDIC          tioned the validity of about $6 million in loans when
                                 against her. The indict-      the bank was closed. The FDIC removed the president
                                 ment alleges that, upon       a week before the bank was closed. At the time, the
                                 her release from prison,      FDIC concluded that the president, who was also the
                                 the woman participated        bank’s largest shareholder, had probably engaged or
                                 in a scheme to fraudu-        participated in acts, omissions, and practices that con-
                                 lently obtain some of the     stituted “violations of law and regulations, unsafe or
                                 assets that had been          unsound banking practices, and breaches of his fiduci-
frozen by the injunction and resell them to individuals        ary duties to the bank.” The investigations that fol-
in four states, collecting in excess of $170,000. As part      lowed the failure of the bank were conducted jointly by
of the scheme, she is alleged to have falsified a docu-        the FDIC OIG and the FBI, and the corresponding
ment that contained a facsimile of the signature of a          prosecutions were handled by the U.S. Attorney’s Office
United States District Court Judge, which she used to          for the Southern District of Iowa.
obtain possession of some of the property. Included
among the assets she is alleged to have illegally              On April 12, 2002, a former director of HCSB and
obtained were firearms, classic automobiles, Harley-           shareholder in the bank holding company of HCSB
Davidson motorcycles, a pontoon boat, a ski boat, sport        was sentenced in U.S. District Court for the Southern
utility vehicles, a tractor, and various other types of        District of Iowa to 3 years’ probation and fined $3,000.
vehicles and farm equipment. The Keystone Task                 The sentencing was based on his entry of a plea of
                                                               guilty in January 2002 to a one-count information
                                                               charging him with making false statements to HCSB.
                                                               The false statements were made in a loan application
                                                               he submitted to HCSB as president of an oil company
                                                               wherein he stated that the specific purpose of the
                                                               $500,000 loan was for “term/equipment.” Upon receipt
                                                               of the loan proceeds, he invested the money in the
                                                               bank holding company of HCSB.

                                                               On May 23, 2002, a former vice president and director
                                                               of HCSB was sentenced in U.S. District Court for the
                                                               Southern District of Iowa to 3 years’ probation and
Force is continuing to coordinate with the trustee and
                                                               fined $500. The sentencing followed that defendant’s
with the FDIC Division Resolutions and Receiverships
                                                               plea of guilty in February 2002 to a one-count informa-
in identifying and recovering the stolen assets.
                                                               tion charging him with making a false statement to the




                                                                                                               35
FDIC. In his position as a vice president and director      The sentencings of the former president and his broth-
of HCSB he submitted Consolidated Reports of                ers are scheduled to occur in 2003.
Condition (Call Reports) to the FDIC. The information
to which he pled guilty charged that he submitted a         Former Bank Official and Two Bank Customers of
Call Report to the FDIC on behalf of HCSB covering          First State Bank, Harrah, Oklahoma, Sentenced for
the time period ending June 30, 1999, that failed to        Conspiring to Commit Bank Fraud
identify the existence of a $1 million loan made by the     On August 7, 2002, a former executive vice president of
bank to the bank’s former president.                        First State Bank, Harrah, Oklahoma, was sentenced in
                                                            the United States District Court for the Western District
On September 4, 2002, the former president of HCSB          of Oklahoma to 5 years in prison, 180 days’ home
entered a guilty plea, in the Southern District of Iowa,    incarceration, and 208 hours of community service,
to 8 counts of a 34-count indictment returned by a fed-     and was ordered to pay restitution of $3,529,500.
eral grand jury in November 2001 charging him and
his two brothers, both of whom were former board            As we previously reported, in February 2001 the for-
members of HCSB, with various bank fraud-related            mer executive vice president and a customer of the
activities. The former president pled guilty to making      bank who was a cattle broker, each pled guilty to con-
false entries in the records of HCSB in two instances by    spiracy to commit bank fraud for their participation in
overstating the value of assets on financial statements     a scheme to defraud the bank by creating a series of 11
submitted in connection with loan applications, and in      fraudulent nominee loans. From August through
two other instances by misrepresenting the purpose of       December 1998, they recruited nominee borrowers and
loans. He also pled guilty to 4 counts of making false      created fictitious nominee borrowers to obtain the
statements. Two of those instances involved the sub-        loans. A nominee borrower is a person or entity
mission of Call Reports to the FDIC that failed to dis-     whose name is used for the purpose of obtaining a
close that HCSB had made loans to its executive offi-       bank loan when the proceeds are actually used for the
cers. The third false statement involved his creating a     benefit of another. The former executive vice president
fraudulent HCSB cashier’s check and related deposit         used his position at First State Bank to prepare loan
ticket, which he provided to FDIC examiners purport-        documents, secure loan approvals, and disburse the
ing them to be true documents. In the fourth instance,      loan proceeds to the cattle broker’s employer. The loan
he pled guilty to submitting a false financial statement    proceeds from this scheme totaled $1,703,500.
to another FDIC-insured financial institution in con-
                                                            On August 8, 2002, the cattle broker was sentenced to
nection with an outstanding loan, by understating the
                                                            14 months in prison to be followed by 3 years’ super-
true amount and value of his debts and liabilities.
                                                            vised release and was ordered to pay restitution of
As a result of continuing plea negotiations with the U.S.   $1,703,500.
Attorney’s Office, on September 11, 2002, the former
                                                            The same former executive vice president was also
president entered guilty pleas to seven additional
                                                            involved with another customer of the First State Bank
counts of bank fraud. His brothers also entered guilty
                                                            in a separate scheme to defraud the bank. In January
pleas on September 11, 2002 to bank fraud for making
                                                            2002 that customer pled guilty to a one-count informa-
or causing to be made false statements to the Federal
                                                            tion charging him with conspiracy to commit bank
Reserve Bank in connection with an application to
                                                            fraud. The information charged that from August
acquire the stock of HCSB. The brothers also agreed to
                                                            through December 1998 the customer conspired with
make restitution to the FDIC in the amount of their
                                                            the former executive vice president and others in a
outstanding loans to HCSB at the time of the bank fail-
                                                            scheme to defraud the bank by creating two forged
ure, which is estimated to be over $200,000 for each.
                                                            cashier’s checks totaling $1,052,000. The checks listed
                                                            the customer as the remitter, even though he had not
                                                            expended any funds to purchase those checks.


36
On August 6, 2002, that customer was sentenced to 5 years    employed. As a result of his beneficial interest in the
in prison to be followed by 3 years of supervised release.   properties, he received a portion of the profits when
                                                             the real estate was sold. His conviction on filing a false
The investigation leading to these actions was conduct-      income tax return was based on his failure to report
ed jointly by the FDIC OIG and the FBI, and the cases        the money he received from the above-described kick-
were prosecuted by the U.S. Attorney's Office,               back and bank fraud schemes.
Oklahoma City, Oklahoma.
                                                             The investigation was conducted jointly by agents of
Former Bank Official Pleads Guilty and Is                    the FDIC OIG, FBI, and IRS Criminal Investigations
Sentenced for Bank Fraud, Income Tax Evasion,                Division, and the prosecution was handled by the
and Receiving Kickbacks on Loans                             United States Attorney’s Office for the Eastern District
On September 23, 2002, a former official at two banks in     of Tennessee. The FDIC OIG and the prosecutors also
Morristown, Tennessee, was sentenced in U.S. District        coordinated with the FDIC Legal Division and the
Court for the Eastern District of Tennessee to serve         Division of Supervision and Consumer Protection
15 months in prison to be followed by 3 years’ probation.    regarding the order to be issued by the FDIC banning
He was also ordered to pay restitution of $47,563. As        the former bank official from banking.
part of his plea agreement with the government, the
defendant also agreed to consent to an order to be           Bank Customer of Illinois Bank Is Sentenced for
issued by the FDIC banning him from banking.                 Bank Fraud
                                                             On September 30, 2002, the owner of a company that
The sentencing of the former bank official followed his      was a customer of Murphy Wall State Bank (MWSB),
entry of a guilty plea in June to a three-count informa-     Pinckneyville, Illinois, was sentenced in the U.S.
tion charging him with bank fraud, receiving kick-           District Court for the Southern District of Illinois to
backs on loans, and filing a false federal income tax        serve 3 years’ probation and was fined $5,000. The
return. According to the documents filed as part of the      sentencing followed his prior plea of guilty in March
plea, the defendant worked for Hamblen County Bank           2001 to a one-count information charging him with
between May 1994 and September 1999 as a vice presi-         bank fraud.
dent, loan officer, and West End branch manager in
Morristown, Tennessee. Between September 1999 and            As previously reported, this bank customer and the for-
November 2000 he was a loan officer and then an              mer executive vice president of MWSB, were both
assistant vice president and branch manager of               charged in 2000 in connection with a loan fraud
Citizens Bank of Grainger County. While employed at          scheme. The former executive vice president pled
these two financial institutions, he received kickbacks      guilty to obstructing the examination of a financial
on three loans for the purchase of real estate for which     institution and was sentenced in November 2000 to
the loan amount exceeded the purchase price. He also         1 year’s probation and was fined $2,000. Additionally,
received kickbacks on numerous loans submitted by            he signed a Stipulation and Consent agreement with
an auto sales dealership, the applications for which         the FDIC resulting in a corresponding order prohibit-
contained false and misleading information regarding         ing him from participating in the operations or affairs
vehicle values, down payments, and the customers’            of any federally insured depository institution.
ability to repay.
                                                             The OIG is participating jointly with the FBI in several
The guilty plea to bank fraud was based on his failure       investigations involving MWSB that are being prose-
to disclose his beneficial interest in a number of real      cuted by the U.S. Attorney’s Office for the Southern
estate transactions in which he was involved in secur-       District of Illinois. In addition to the prosecutions
ing purchase loans from the institutions where he was        described above, these cases have resulted thus far in




                                                                                                              37
the conviction of another customer of MWSB on bank          band and wife owners of a construction company and
fraud charges. That customer was sentenced in June          the company itself with bank fraud and conspiracy to
2001 to 4 months in jail, to be followed by 4 months of     commit bank fraud.
home detention and 5 years’ probation. He was also
fined $200 and ordered to make restitution of $157,312      As alleged in the indictment, between December 1997
to MWSB. Although the former president of MWSB              and July 2000 the couple used their company to submit
was indicted on charges of obstructing an examination       invoices for construction work purportedly performed
of the bank, making a false statement to the FBI, mak-      for Community Bank, an FDIC-regulated bank located
ing false bank entries, and misapplying bank funds, he      in Blountsville, Alabama. According to the indictment,
was acquitted on those charges in June of this year.        some of the invoices were for work that was never per-
                                                            formed and other invoices were for personal construc-
Former Officer Pleads Guilty to Misapplying Funds           tion work performed for the bank’s chief executive offi-
of the Institution for Savings of Newburyport,              cer, relatives of the chief executive officer, and the
Massachusetts                                               bank’s vice president of construction and maintenance.
On July 8, 2002, the U.S. District Court for the District   The indictment further alleges that the records of the
of Massachusetts accepted a plea of guilty by a former      bank were falsified to reflect that the work was com-
officer of the Institution for Savings (IFS) of             pleted at the bank’s facilities. In total, the defendants
Newburyport, Massachusetts, to 59 counts of misapply-       are alleged to have received approximately $1,685,000
ing the funds. As described in our last semiannual          as a result of the fraud scheme.
report, the former officer was indicted in March 2002
for misapplying a total of approximately $162,000 of        The indictment includes a forfeiture claim seeking any
funds between February 1997 and March 2001 by nego-         property derived from the fraud scheme. Specifically
tiating her personal checks at IFS and then removing        identified in the forfeiture count are the contents of a
them from the bundle of items that IFS was sending to       bank account of the company, a boat, 2 motorcycles,
the Federal Reserve Bank for processing. Later, when        11 vehicles, 2 tractors, 7 trailers, various construction
the missing amounts were reported back to IFS, she          equipment, and 6 pieces of real estate.
would make entries in the books and records of IFS to
                                                            As we previously reported, in October 2001 agents
conceal the missing funds.
                                                            from the FDIC OIG and FBI seized over $70,000 in pro-
As a part of her plea agreement with the government,        ceeds and some unsold items including a semi-tractor
the defendant will also forfeit her home in Amesbury,       trailer and two motorcycles following an asset sale by
Massachusetts, which was purchased, in part, with           the construction company. Subsequently, all of the
some of the funds that she embezzled.                       bank accounts of the company were frozen pursuant to
                                                            a U.S. District Court order.
The investigation of this case is being conducted jointly
by agents of the FDIC OIG and the FBI. Prosecution of       The investigation of suspected fraud involving
the case is being handled by the United States              Community Bank is being conducted by agents from
Attorney’s Office for the District of Massachusetts.        the FDIC OIG, FBI, and IRS.
                                                            Management and Sale of FDIC-Owned Assets
Owners of Construction Company Indicted for
                                                            Former Employee of Contract Asset Management
Defrauding Community Bank of Blountsville,
                                                            Company Pleads Guilty to Theft of Government
Alabama
                                                            Funds
On June 11, 2002, an indictment was unsealed that had
                                                            On September 12, 2002, a former employee of a compa-
been returned on May 31, 2002, by a federal grand jury
                                                            ny hired by the Resolution Trust Corporation to man-
in the Northern District of Alabama charging the hus-
                                                            age assets entered a plea of guilty in the U.S. District




38
Court for the Western District of Texas to a one-count         This investigation was conducted jointly with the FBI,
information charging him with theft of funds belonging         and the criminal prosecution is being pursued by the
to the FDIC.                                                   U.S. Attorney’s Office for the Western District of Texas.

The plea was the result of an investigation initiated by       Real Estate Speculator Ordered to Pay FDIC
the FDIC OIG based on a referral from the FDIC                 Restitution of $378,000
Division of Resolutions and Receiverships indicating           On September 30, 2002, a real estate speculator was
that the defendant may have been engaged in self-deal-         sentenced in the U.S. District Court for the Central
ing in the sale of at least one asset. The investigation       District of California to 37 months’ incarceration to be
disclosed that the defendant used his position as an           followed by 36 months of probation. He was also
asset specialist with the contractor to negotiate and sell     ordered to pay restitution of $912,000, of which
FDIC assets to entities with whom he had undisclosed           $378,000 is to be paid to the FDIC.
agreements to collect additional payments and fees. To
hide his conflicting interests in the sale of assets, he       The OIG initiated an investigation based on informa-
arranged with his wife and one of his associates to            tion that was referred by the Division of Resolutions
form two companies for the sole purpose of purchasing          and Receiverships indicating the defendant and an
properties from the portfolio of properties he was             accomplice may have defrauded the FDIC as part of a
responsible for managing for the Resolution Trust              transaction involving an FDIC-owned single family
Corporation/FDIC. Properties sold to these companies           residence in Sunset Beach, California. The FDIC had
were re-sold shortly thereafter for a higher amount.           assumed ownership of the property following the clo-
The defendant also collected additional fees and pay-          sure of Mechanics National Bank.
ments during the sale of the assets.
                                                               The investigation confirmed that the FDIC had been
Through his self-dealings, the defendant received              defrauded. However, during the course of the investi-
approximately $700,000 in kickbacks and caused the             gation it was discovered that the defendant was also
FDIC and the asset management company losses of                under investigation by the FBI for similar fraud
approximately $1.2 million. In her capacity as the des-        schemes involving two other properties and that he
ignated owner of one of the companies, the defendant’s         had already been indicted on an older, unrelated FBI
wife has settled a civil suit filed against her by the asset   case involving loan fraud. He pled guilty and was sen-
management company for $541,000, which represents              tenced to probation in December 1998 on the loan
the financial gain realized by that company as a result        fraud case. In pursuing prosecution of the more recent
of the self-dealings. The asset management company,            illegal activities, the Assistant United States Attorney
in turn, remitted these settlement funds to the FDIC.          who handled the case chose to charge him based on
The asset management company has also received an              his conduct involving the non-FDIC properties but to
“Arbitration Award” against the defendant for                  use the information pertaining to the FDIC property as
                                                               relevant conduct during sentencing. Accordingly,
 • actual damages of $631,256.60,                              when the defendant was sentenced as described above
                                                               in connection with his prior guilty plea to wire fraud
 • punitive damages of $150,000,                               and money laundering, the restitution he was ordered
                                                               to pay included $378,000 to be paid to the FDIC.
 • arbitration cost/expenses of $12,900,
                                                               FDIC Property Management Contractor Agrees to
 • prejudgment interest on actual damages of
                                                               Pay FDIC $38,000
   $111,121.83, and
                                                               On September 10, 2002, an FDIC property manage-
 • post-judgment interest of 10 percent per annum on           ment contractor signed a settlement agreement with
   the entire award.                                           the FDIC and the United States Attorney’s Office for the



                                                                                                                39
Eastern District of New York which stipulates that the    As alleged in the indictment, beginning in March 1990,
company will pay the FDIC $38,000. In return, the         the defendants entered into a series of loan agreements,
U.S. Attorney’s Office and the FDIC agreed not to         guarantees, and promissory notes on behalf of their
pursue potential prosecution or administrative action     company with First New York. In 1992, they acknowl-
related to the company profiting from the sale of an      edged they had defaulted on the loans and entered into
FDIC property.                                            repayment agreements with First New York in which,
                                                          among other things, they agreed to repay the loans by
An OIG investigation was initiated based on informa-      granting First New York the right to clear all payments
tion received by the OIG Hotline alleging that the com-   made by company’s customers. The defendants also
pany improperly profited from the sale of a property it   agreed to direct all present and future customers to
managed for the                                           make their payments directly to First New York.
FDIC. The investi-
gation determined                                         However, unbeknownst to First New York, between
that a principal of                                       July 1992 and August 1995 the defendants deposited
the company pro-                                          accounts receivable payments owed to First New York
vided financing to                                        pursuant to the agreements into an account they had
the purchaser of a                                        set up at another bank. The indictment also alleges
property he was                                           that, in furtherance of their scheme, they formed a
managing for the                                          series of shell companies, which they used to falsely
FDIC. Additionally,                                       hide business activities between the company and its
the investigation                                         customers, thereby circumventing the repayment
determined that                                           agreements with First New York.
when the original
purchaser resold the property, the same company prin-     The OIG initiated this investigation based on a referral
cipal received not only his original investment, but an   from the FDIC Legal Division, which became aware of
agreed-upon profit.                                       questionable transfers during the discovery phase of
                                                          civil litigation with the company over its debt.
Based on the results of the investigation, the U.S.
Attorney’s Office and the FDIC negotiated a settlement    Former Contract Auctioneer Pleads Guilty and Is
with the company whereby the company will repay the       Sentenced for Credit Card Fraud
FDIC the $28,000 profit it received on the transaction    On April 18, 2002, a former contract auctioneer for the
plus $10,000 towards the cost of the OIG investigation.   Resolution Trust Corporation pled guilty in the U.S.
                                                          District Court for the Southern District of Florida to
Restitution and Other Debt Owed the FDIC                  credit card fraud in excess of $200,000. The plea was
Owners of Company that Owed Over $3 Million to            entered pursuant to an agreement with the United
the Former First New York Bank for Business               States, which also provided that a second charge pend-
Indicted for Conspiracy and Bank Fraud                    ing against him for concealing assets to avoid paying
On June 20, 2002, the two owners of a company that        restitution to the FDIC would be withdrawn. However,
borrowed over $3 million from the now-defunct First       he acknowledged in the plea agreement that he still
New York Bank for Business (First New York) were          owes approximately $77,000 in restitution in connec-
indicted by a federal grand jury in the Southern          tion with the credit card fraud and that he owes the
District of New York on charges of defrauding and con-    FDIC restitution of $118,130 less payments already
spiring to defraud the bank. The FDIC was appointed       made. On June 11, 2002, he was sentenced in the U.S.
to act as the receiver for First New York following its   District Court for the Southern District of Florida to
closure by the State of New York Banking Department       18 months in jail, 3 years’ probation, and ordered to
in November 1992.                                         pay $76,985.51 in restitution.



40
The defendant and his company were the subjects of a       ly insured as promised. More than $1.3 million in pro-
prior OIG investigation that resulted in his prosecution   ceeds from the sale of CDs was commingled in a single
for embezzling funds from the FDIC while serving as a      bank account in Dallas, which the principals of the
contract auctioneer. In April 2000 he was sentenced in     scheme intended to use to make high-risk investments
that case to serve 5 months of confinement, 150 days of    that were not FDIC-insured. The accomplice who was
home detention, and 1 year of probation and to pay a       sentenced as described above was the intended recipient
fine of $75,000. Also as part of the sentencing, he and    of the $1.3 million generated as a result of this scheme.
his company were ordered to pay restitution jointly
and severally of $118,130 to the FDIC.                     As we previously reported, the insurance agency
                                                           owner was also prosecuted for his part in the scheme.
Following a joint investigation by agents of the OIG       Following his guilty plea to one count of securities
and the U.S. Secret Service, the former contract auc-      fraud, in January 2001 he was sentenced to 14 months’
tioneer was indicted in August 2001 for concealing         imprisonment and 3 years’ probation. Additionally,
assets to avoid paying the restitution to the FDIC and     over $1.3 million generated from the sale of the CDs
for credit card fraud. With respect to the concealment     was seized by the government and subsequently
charge, the indictment alleged that he transferred his     returned to the victims.
interest in his home via quit claim deed to his wife
within days after learning of an imminent potential        Securities Dealer Charged and Arrested for Theft
indictment against him in the embezzlement case. The       and the Selling of Unregistered Securities Totaling
home was sold in May 2000 for a net profit of $663,396.    $67,390,735
                                                           Based on an investigation that the FDIC OIG is con-
Misrepresentations Regarding FDIC Insurance or             ducting jointly with the Riverside County (California)
Affiliation                                                District Attorney’s Office, a 67-count complaint has
Accomplice Sentenced for Participation in Fraud            been filed charging a securities dealer in California
Scheme Involving Uninsured Certificates of Deposit         with selling unregistered securities (CDs), making
On April 18, 2002, an accomplice in a fraud scheme         false statements in the sale of the securities, and theft.
involving the sale of certificates of deposit (CDs) was    He is also charged with participating in a pattern of
sentenced in the U.S. District Court for the Western       felony conduct involving the taking of more than
District of North Carolina to 41 months’ imprisonment      $500,000.
and 2 years’ probation. He was also ordered to pay
restitution totaling $190,662.83. The sentencing fol-      The securities dealer was licensed to sell securities
lowed his prior plea of guilty in August 2000 to one       through San Clemente Services, Inc., another company
count of money laundering.                                 involved in the sale of brokered CDs. However, as
                                                           reflected in the charges against him, he is accused of
The defendant was prosecuted for his part in a scheme      defrauding investors through material misrepresenta-
involving the sale of CDs that were falsely represented    tions regarding FDIC insurance coverage, investment
to have been issued by the Bank of America and FDIC-       yields, fees, and commissions in the sale of approxi-
insured up to $100,000, as well as privately insured.      mately 1,241 CDs totaling $67,390,735.
The scheme was initiated by the principal owner/man-
ager of an insurance agency located in Oklahoma City,      This OIG investigation was initiated based on a referral
Oklahoma, who, aided and abetted by others, con-           by the Division of Supervision and Consumer
vinced mostly elderly individuals to purchase the CDs      Protection of information obtained during the examina-
through advertisements offering high rates of return.      tion of a bank indicating irregularities in deposits the
In fact, however, the CDs were issued by an entity         bank had placed with San Clemente Services. The
established for the purpose of collecting money from       prosecution of the case is being handled by the
the unwary investors. Accordingly, the CDs were not        Riverside County District Attorney’s Office.
separately insured by the FDIC, nor were they private-


                                                                                                             41
Employee Activities                                         The OIG initiated an investigation based on a referral
Former Examiner Pleads Guilty and Is Sentenced              from the Division of Information Resources
for Illegal Conversion of FDIC Funds                        Management indicating that six activated cellular tele-
On June 12, 2002, a former FDIC examiner with the           phones had been stolen from the FDIC offices in Dallas
Division of Supervision was sentenced in the U.S.           between August 2000 and April 2001. The defendant
District Court for the Western District of Texas to         was identified as the suspect through investigative
5 years’ probation, 100 hours of community service,         efforts, which included analysis of telephone calling
and ordered to pay restitution of $14,789.01. The sen-      patterns. He had worked as a security guard at the
tencing followed the former examiner’s guilty plea in       FDIC facility from August 2000 until April 2001, when
April of this year to an information charging her with      he was terminated for unrelated conduct. An interview
illegally converting public property (FDIC funds) to        of the suspect in May 2001 resulted in the recovery of
her own use. The OIG initiated an investigation of          two of the cellular telephones.
the former examiner based on a referral by the
                                                            Other
then-Division of Supervision indicating the employee
                                                            Man Who Posed as “FDIC Inspector” Pleads Guilty
may have submitted false claims to the FDIC for
                                                            to Fraudulently Using Bank Routing and Account
reimbursement of relocation-related expenses. The
                                                            Numbers
examiner terminated her employment with the FDIC
                                                            Pursuant to a plea agreement with the United States
in May 2000. Based on an affidavit by the OIG case
                                                            Attorney’s Office, on September 20, 2002, a man who
agent which set forth facts obtained during the investi-
                                                            had posed as an “inspector” with the FDIC pled guilty in
gation, a warrant was issued for her arrest, and on
                                                            the U.S. District Court for the Northern District of Texas
March 1, 2002, special agents of the OIG arrested her
                                                            to one count of fraudulent use of an access device.
at her home. As described in the affidavit, between
February and May 1998 she submitted vouchers for            This OIG investigation was initiated based upon a
relocation-related expenses totaling $32,978. The           referral from a case manager in the then-Division of
vouchers included claims for temporary quarters             Supervision who reported that he had received two
supported by hotel receipts that had been manufac-          phone calls from businesses located at Preston Forest
tured by the employee.                                      Village shopping center. Both callers said that a man
                                                            representing himself as an “inspector” with the FDIC
                                                            had asked to look at their credit card machines and
                                                            merchant account statements. Investigation identified
                                                            the defendant as the responsible party. At the time he
                                                            was employed by a company that is in the business of
                                                            selling credit card processing services and payment
                                                            systems to small businesses. Upon learning of his mis-
                                                            representing himself as an FDIC inspector, the compa-
                                                            ny terminated his employment.
Former Security Guard at FDIC Facility in Dallas Is
Sentenced for Theft of FDIC Cellular Telephones             Further OIG investigation of his related activities dis-
On August 23, 2002, a former security guard at an           closed that the defendant had been employed as a col-
FDIC facility in Dallas was sentenced in the District       lection representative by The Associates National Bank,
Court for Dallas County, Texas, to pay a fine of $300,      Irving, Texas, and, as such, had access to the bank
court costs of $280.25, and $500 restitution to the FDIC.   routing and account numbers of the bank’s credit card
He was also placed on probation for 1 year.                 clients. In February 2001 he opened an account at
                                                            Chase Manhattan Bank, Irving, Texas. He then falsely
                                                            made 10 checks totaling approximately $7,062 using



42
the bank account numbers of clients of The Associates




                                                             ★
National Bank and deposited the checks into his
account at Chase Manhattan Bank.

Witness Is Charged and Pleads Guilty to Theft of
Government Funds
On July 18, 2002, a witness who had been interviewed
as a part of an OIG investigation into alleged conceal-
ment of assets pled guilty in the U.S. District Court for
the District of Massachusetts to theft of government




 ★
funds. The witness had been previously indicted in
June 2002 for receiving approximately $45,000 in Social
Security disability benefits to which he was not entitled.

The witness was contacted as a part of an OIG investi-
gation because of his affiliation with a suspect who
was allegedly concealing assets to avoid paying
$5 million in restitution that he owed the FDIC as a
result of his conviction on bank fraud charges in 1991.
Because of apparent false information that the witness
provided in an affidavit, additional investigation was
conducted which disclosed that he had been continu-
ing to receive Social Security disability benefits to
which he was not entitled.




★                                                                43
         Four OIG Special Agents Receive Attorney General’s
                  Award for Distinguished Service
                                                     Assistant Special Agent in Charge Phil
                                                     Robertson, and Special Agents Gary Sherrill,
                                                     Bart Henkle, and Todd Price were among the
                                                     11 team members who received the Attorney
                                                     General's Award for Distinguished Service
                                                     for their exemplary work in the investiga-
                                                     tions and prosecutions relating to the failure
                                                     of the First National Bank of Keystone (West
                                                     Virginia). Attorney General John Ashcroft
                                                     personally presented the award to the team
                                                     members during the Attorney General's 50th
                                                     Annual Awards Ceremony, which was held
               The Attorney General’s
           50th Annual Awards Ceremony               on July 17, 2002, at Constitution Hall in
                                                     Washington, D.C.

     The basis for the award to the Keystone team was summarized as follows in the ceremony
     program:

      “The team is recognized for their exemplary role in the investigation and prosecu-
      tion of former bank executives in Keystone, West Virginia. They demonstrated out-
      standing dedication, teamwork, and skill in investigating and prosecuting those
      responsible for one of the largest single bank failures in recent history, a failure
      which cost the Federal Deposit Insurance Corporation insurance fund over $800 mil-
      lion. Their noteworthy efforts, which resulted in the conviction of seven defendants
      and included two trials and a series of guilty pleas in a very complex investigation,
      serve as a model for cooperation and partnership.”

     The Distinguished Service award is the second highest award given by the Attorney General.
     Only three other teams and one individual received the award this year. Among the other
     recipients in this category were awards for the investigative team responsible for the success-
     ful prosecution of Ahmed Ressam, a member of the Osama bin Laden terrorist organization
     who was arrested transporting explosives in an attempt to destroy the Los Angeles
     International Airport during the 2000 millennium celebration. Another was presented to the
     investigative team responsible for the investigation and prosecution of those responsible in
     the bombings of our embassies in Nairobi, Kenya, and Dar Es Sallam, Tanzania, in August 1998.




44
                                                                                      ★
                                                                                                              ★★
 OIG Organization
Like the Corporation, the OIG has been engaged in a        around five operational directorates: Resolution,
major downsizing effort, which has resulted in signifi-    Receivership, and Legal Affairs; Insurance,
cant reorganization. Through participation in the          Supervision, and Consumer Affairs; Information
Corporation’s early retirement and buyout program          Assurance; and Resources Management. A fifth direc-
and other attrition, by March 2003, 54 employees will      torate, Corporate Evaluations, performs corporate-wide
have separated from the OIG, or 25 percent of our April    and other evaluations, which are integrated into each
2002 staff level. The OIG also closed its San Francisco    of the other primary Directorates. We issued our Fiscal
field office during the reporting period. The OIG plans    Year 2003 Assignment Plan, which identifies audits and
to have a permanent staff level of 168 in 2003, com-       evaluations based on our understanding of the prioriti-
pared with the 215 staff authorized for 2002. As a         zation of key risks to the FDIC. The projects included
result, our 2003 corporate budget is 12 percent less       in the plan are specifically designed to help the FDIC
than our 2002 budget. The downsizing has presented         successfully address risks, meet its many challenges,
us with new challenges that parallel the Corporation’s     and accomplish its strategic goals.
challenges—both operational and human capital-relat-
ed. The separation of so many employees has resulted
in a loss of hundreds of years of knowledge and expert-             OIG Internal IT Security
ise. In light of such dramatic changes, the OIG is com-                    Program
mitted to evaluating its workload and analyzing exist-
ing knowledge and skills to determine what gaps exist,        The OIG continued development of an Information
how to best fill those gaps, whether any “surplus” staff      Security Program for the OIG’s automated informa-
exist and, if so, how they can best be re-deployed.           tion and systems. The program is part of a wider
                                                              information security program being implemented
The new organization, though smaller, is more closely         throughout the FDIC. The efforts internal to the OIG
aligned with key FDIC mission areas. We are also              have thus far included designating an information
making strategic changes that align our planning              security manager, appointing an advisory commit-
process more closely with our budget process and with         tee with representatives from each OIG organization
reporting requirements of the Inspector General Act.          component, publishing “e-security tips” for OIG
We continue to work to improve the quality of our             staff, and drafting new policies for further consider-
goals, objectives, and performance measures. The              ation. In the future, this program will also address
plans that drive our work will reflect the OIG’s transi-
                                                              areas such as data access control, hardware con-
tion from a calendar year performance planning and
                                                              trol, virus protection, disaster recovery, contingency
reporting cycle to a fiscal year cycle ending
                                                              planning, business continuity, data storage manage-
September 30. This will be consistent with the OIG’s
                                                              ment, and application security management. The
separate appropriation based on a typical government
                                                              OIG is also working with Corporation staff to pro-
fiscal year and will also be consistent with the semian-
                                                              pose measures to enhance corporate-wide informa-
nual reporting periods prescribed by the Inspector
                                                              tion technology security.
General Act. Further, we have identified four strategic
goals to reflect the OIG’s future priorities: (1) Value
and Impact, (2) Communication and Outreach,
(3) Human Capital, and (4) Productivity.

The Office of Audits (OA) was most impacted by the
OIG’s downsizing initiative. To meet the needs of the
Corporation and to better ensure that our work adds
value, OA has undergone a major reorganization




                                                                                                             45
                                                           ★
Our Office of Investigations (OI) has also realigned its
staff and field operations in response to the OIG’s
downsizing effort. OI operates two regional offices:
the East Region, based in Atlanta, has agents in Atlanta
and Washington, D.C., and the West Region, based in
Dallas, has agents in Dallas and Chicago. In addition
to regional operations, OI maintains a Special
Investigations and Electronic Crimes Team based in
Washington, D.C. Members of this team are assigned
to particularly sensitive investigations and, where
needed, provide support to major investigations under-




                                                           ★
way in the regions. This team also specializes in con-
ducting investigations of computer crimes and in sup-
porting OI in cases requiring seizure and analysis of
computer evidence. Other OIG offices have adapted to
changing workloads and/or combined functions in
seeking to improve overall process efficiencies.

While restructuring to a smaller workforce, the OIG
continues to look to increasing the value of our people
and the performance capacity of the OIG. During this
reporting period the OIG issued a Human Capital
Strategic Plan, which will align and integrate our
human resource policies and practices with the OIG




                     ★
mission. As referenced earlier, the alignment of our
human resources with our mission is a new strategic
goal in the OIG’s revised Strategic Plan. It comple-
ments the other strategic goals of the Strategic Plan by
seeking to align and integrate human resource policies
and practices with our business practices. The Human
Capital Strategic Plan outlines four objectives to maxi-
mize the return on our human capital investments and
sustain a high-performance organization. The objec-
tives relate to workforce analysis; competency invest-
ments; leadership development; and a result-oriented,
high-performance culture.




46
★                                  Internal OIG Activities
    • Issued Office of Audits’ FY 2003 Assignment Plan.

    • Issued OIG Human Capital Strategic Plan.
                                                               America representatives at various briefings during
                                                               the reporting period. Topics include the role, work,
                                                               and priorities of the FDIC OIG.
                                                                                                                           ★
    • Submitted 2003 corporate budget to the FDIC’s          • Completed a joint evaluation of the Federal
      Chief Financial Officer. As a result of OIG downsiz-     Financial Institutions Examination Council, per-
      ing, our 2003 budget is 12 percent less than our         formed jointly with the OIGs of the Department of
      2002 corporate budget.                                   the Treasury and the Board of Governors of the
                                                               Federal Reserve System. The evaluation conclud-
    • Attended and spoke at various conferences
                                                               ed that the Federal Financial Institutions
      regarding information technology and Government
                                                               Examination Council is accomplishing its legisla-
      Information Security Reform Act (GISRA) issues
                                                               tive mission of prescribing uniform principles,
      based on our recent GISRA work, including spon-
                                                               standards, and report forms and achieving coordi-
      soring an update conference with the U.S. General
                                                               nation between the banking agencies.
      Accounting Office (GAO), Office of Management
      and Budget, and 11 federal departments and 34          • Continued participation in inter-agency Government
      independent agencies regarding the implementa-           Performance and Results Act (Results Act) Interest
      tion of GISRA.                                           Groups sponsored by the President’s Council on
                                                               Integrity and Efficiency and the U.S. Office of
    • Attended various professional conferences includ-
                                                               Personnel Management to share ideas and best
      ing: Institute of Internal Auditors’ International
                                                               practices on the Results Act implementation.
      Conference; Association of Government
      Accountants’ Professional Development                  • Participated in a panel discussion at the
      Conference; Federal Audit Executive Council’s            FDIC/Department of Justice Federal Strategies
      Annual Conference; FDIC’s Corporate Security             Against Fraud Conference relating to the OIG’s
      Conference; and National Academy of Public               investigation of the Keystone National Bank fail-
      Administration’s Performance Conference.                 ure. The OIG provided an overview of the obstruc-
                                                               tion and fraud investigation stemming from
    • Hosted meeting of GAO-sponsored Joint
                                                               Keystone’s failure, as well as a discussion of the
      Information Security Audit Initiative to develop
                                                               “red flags” or fraud indicators discovered during
      strategies for addressing information security
                                                               the course of this and other investigations.
      risks to the government.
                                                             • Four OIG Special Agents received the Attorney
    • Briefed representatives of the President’s Critical
                                                               General’s Award for Distinguished Service for their
      Infrastructure Board on recent and planned audit
                                                               exemplary work in the investigations and prosecu-
      and evaluation coverage of physical and informa-
                                                               tions relating to the failure of the First National
      tion security issues.
                                                               Bank of Keystone in West Virginia. (See write-up
    • Further strengthened the OIG’s internal                  in Investigations section of this report.)
      Information Technology Security Program through
                                                             • Patricia Black became Deputy Inspector General
      a number of new initiatives. (See highlighted
                                                               for the OIG. For the past 5 years Ms. Black has
      write-up in this section.)
                                                               served as Counsel to the Inspector General and
    • Spoke on information security issues at a meeting        was Counsel to the Resolution Trust Corporation
      of the Computer System Security and Privacy              (RTC) Inspector General from the RTC’s inception
      Advisory Board, providing an audit perspective on        in 1989 until the RTC merged with the FDIC.
      baseline information security risks, the statutory
                                                             • Led a PCIE committee to update OIG quality stan-
      framework related to information security, pro-
                                                               dards.
      gram and systems security standards, and matri-
      ces that are useful for assessing both information     • Reviewed and provided comments on the expo-
      systems and information security programs.               sure draft of GAO’s revised Government Auditing
                                                               Standards.
    • Inspector General makes presentations to America's
      Community Bankers, Conference of State Bank            • Presented results of OIG audits and evaluations at
      Supervisors, and Independent Community Bankers of        three Audit Committee meetings.



                                                                                                                      47
★    ★
                        Assistance to FDIC Management
     • Participated in National Conference for Field Office   • Attended various meetings with FDIC Division
       Supervisors regarding the progress of Process            Directors and Division of Supervision and
       Redesign Phase II.                                       Consumer Protection (DSC) Field Office
                                                                Supervisors to continue outreach initiatives by
     • Participated in the FDIC’s development and imple-        discussing ongoing and planned audits and evalu-
       mentation of the Office of Management and                ations, risk areas, and other issues of mutual
       Budget’s Information Quality Guidelines.                 interest. The meetings are intended to communi-
                                                                cate and coordinate OIG work throughout the
     • Briefed the Chairman and FDIC Operating
                                                                Corporation.
       Committee on the OIG’s Fourth Annual OIG Client
       Survey.                                                • Met with Memphis and Atlanta DSC management
                                                                officials to discuss our Office of Investigations’
     • Commented on the FDIC’s 2001 Annual
                                                                involvement in open bank investigations, handling
       Performance Report. (See Establishing Goals and
                                                                of Right to Financial Privacy Act issues concern-
       Measuring Results write-up.)
                                                                ing DSC examiners and OIG investigations, and
     • Completed an annual review of the Corporation’s          bank examiner awareness of situations involving
       Internal Control and Risk Management Program,            possible obstruction of FDIC bank examinations.
       concluding that the program was conducted in             Also discussed issues related to open and closed
       accordance with FDIC policy and was consistent           bank investigations being conducted in DSC’s
       with provisions of the Federal Managers’ Financial       Atlanta and Memphis regions and the Office of
       Integrity Act.                                           Investigation’s new organizational structure.
                                                                These issues were also discussed by the Office of
     • Provided technical assistance in a joint project         Investigations at a Division of
       with the Office of Internal Control Management           Supervision/Division of Compliance and
       and the Division of Administration to determine          Consumer Affairs training conference.
       whether FDIC policies ensure that accounting and
       auditing contractors comply with GAO’s new inde-       • Inspector General and Director, OICM, make a joint
       pendence standards. (See Establishing Goals and          presentation to Association of Government
       Measuring Results write-up.)                             Accountants’ professional development confer-
                                                                ence on the roles and responsibilities of the FDIC
                                                                Audit Committee.




48
                                                                                      ★ ★
        FDIC Inspector General
                                     ★
     Involvement in IG Community
    Over the last 6 months, the Inspector General (IG)
    community has been very active in helping the govern-
    ment achieve better results. As a whole, the community
    has remained focused on various management initiatives
    as well as issuing reports and responding to congres-
    sional requests for information. The FDIC Inspector
    General, who has served as the Vice Chair of the
    President’s Council on Integrity and Efficiency (PCIE)
    since April 1999, has provided the leadership for the
    community’s efforts.

    Over the last few months, the IG community has been




★
    concentrating many of its activities on areas that would
    facilitate agency efforts related to the President’s
    Management Agenda. For example, in the financial man-
    agement arena, the IG community has worked on erro-
    neous payments and accelerated reporting issues, and
    produced a guide to review government purchase card
    activity. In the areas of government performance, infor-
    mation technology, and human capital, PCIE committees
    and working groups continue to sponsor meetings and
    forums to share expert experiences and best practices.

    To enhance the IG community’s ability to continue fulfill-
    ing its mission, the PCIE co-hosted its annual conference
    to highlight challenges facing the community and explore
    ways to address them. During the 2-day conference, IGs
    heard perspectives from members of the Administration
    and agency officials, congressmen and congressional
    staff, and the media on a cross-section of issues the IG
    community faces internally as well as when working
    with their agency heads.

    Finally, the PCIE issued several documents over the last




★
    6 months that contributed to good government. These
    documents addressed our nation’s critical infrastructure
    protection, critical security, and government-wide man-
    agement challenges. Several of these documents were
    requested by congressional oversight committees to
    augment their oversight abilities.




                                                                 49
                                    Table 1: Significant OIG Achievements
                                        (April 2002 – September 2002)

                              Audit and Evaluation Reports Issued                       22
                              Questioned Costs and Funds Put to Better Use    $2.1 million
                              Investigations Opened                                     23
                              Investigations Closed                                     12
                              OIG Subpoenas Issued                                      14
                              Convictions                                               17
                              Fines, Restitutions, and Monetary Recoveries    $820 million
                              Hotline Allegations Referred                              15
                              Allegations Closed                                        15
                              Allegations Substantiated                                  1
                              Proposed Regulations and Legislation Reviewed              1
                              Proposed FDIC Policies Reviewed                           22
                              Responses to Requests and Appeals under the
                                Freedom of Information and Privacy Acts                13




      Table 2: Nonmonetary Recommendations

     April 2000 – September 2000                       74
     October 2000 – March 2001                         90
     April 2001 – September 2001                       34
     October 2001 – March 2002                         68
     April 2002 – September 2002                       73




50
                                     OIG Counsel Activities
                                 (April 2002 – September 2002)

The Mission of the Office of Counsel
The Office of Counsel serves the legal needs of the OIG. To that end, Counsel’s office provides the legal
advice and assistance on the entire range of issues that have faced, are facing, or will face the OIG. The
Office litigates personnel cases; provides advice and counsel on matters arising during the course of
audits, investigations, and evaluations, including the legal sufficiency of reports; reviews, analyzes, and
comments on proposed or existing regulations or legislation, including recent banking legislation and
implementing regulations; communicates or negotiates with other entities; responds to Freedom of
Information Act and Privacy Act requests and appeals; prepares and enforces subpoenas for issuance by
the Inspector General; and coordinates with the Legal Division. Examples include:
Litigation
Counsel’s Office has actively litigated or assisted in the litigation of 11 matters during the reporting peri-
od. These matters involved claims brought before the Equal Employment Opportunity Commission and
the Merit Systems Protection Board, the “qui tam” provisions of the False Claims Act, and civil and crimi-
nal cases in which OIG documents were sought in discovery. These matters are in addition to 12 matters
that are awaiting further action by the parties or rulings by the court or other adjudicatory bodies.
Advice and Counseling
Counsel’s Office provided advice and counseling, including written opinions on a number of issues,
including closed bank matters; personnel issues including downsizing, reorganization, and mobility
requirements; use of travel and procurement cards; review of the Gramm-Leach-Bliley Act and FDIC’s
Special Examination Authority; investigative matters; contract interpretations; and various ethics-related
matters. In addition, Counsel’s Office provided comments relative to the legal sufficiency of more than 20
audit reports and evaluations.
Legislation/Regulation Review
Counsel’s Office has carried out its responsibilities under the Inspector General Act to review proposed or
existing legislation and regulations. During this reporting period, Counsel’s Office reviewed and provided
comments on one FDIC regulation.
Subpoenas
Counsel’s Office prepared 14 subpoenas for issuance by the Inspector General during this reporting
period.
Freedom of Information Act/Privacy Act
Counsel’s Office responded to 13 requests under the Freedom of Information Act and the Privacy Act.




                                                                                                            51
                                                 Organization Chart



                                                     Inspector General
                                                     Gaston L. Gianni, Jr.                Counsel to the Inspector General

                                                  Deputy Inspector General                            Fred W. Gibson
                                                      Patricia M. Black




                              Office of Audits                           Office of Investigations

                         Assistant Inspector General                   Assistant Inspector General
                                Russell A. Rau                              Samuel M. Holland




     Office of Policy Analysis and                 Office of Management                   Office of Quality Assurance and
       Congressional Relations                           and Policy                                  Oversight

      Assistant Inspector General                Assistant Inspector General                   Assistant Inspector General
         Rex Simmons (Acting)                           Rex Simmons                                Robert L. McGregor



               Inspector General                                       Gaston L. Gianni, Jr.          202-416-2026
               Deputy Inspector General                                Patricia M. Black              202-416-2474
               Counsel to the Inspector General                        Fred W. Gibson                 202-416-2917
               Assistant Inspector General for Audits                  Russell A. Rau                 202-416-2543
               Assistant Inspector General for Investigations          Samuel Holland                 202-416-2912
               Assistant Inspector General for
               Management and Policy                                   Rex Simmons                    202-416-2483
               Assistant Inspector General for
               Quality Assurance and Oversight                         Robert L. McGregor             202-416-2501
               Assistant Inspector General for Policy
               Analysis and Congressional Relations                    Rex Simmons (Acting)           202-416-2483




52
                                                                          Figure 1: Products Issued and Investigations Closed


                                      ●   04/00 - 09/00* 20060
                                      ●   10/00 - 03/01*
                                      ●   04/01 - 09/01     50
                                      ●   10/01 - 03/02
                                                            40
                                      ●   04/02 - 09/02

                             *Includes products related                   30
                             to OIG work that did not
                             result in formally issued                    20
                             audit or evaluation reports.
                                                                          10

                                                                           0
                                                                                      Audits and                  Investigations
                                                                                      Evaluations


                        Figure 2: Questioned Costs/Funds Put to Better Use
                                     (in millions)

                     20012
●   04/00 - 09/00
●   10/00 - 03/01      10
●   04/01 - 09/01*
                                                     *None this period




●   10/01 - 03/02       8
●   04/02 - 09/02
                        6

                        4

                        2

                        0
                                      Audits and Evaluations


                                                                         Figure 3: Fines, Restitution, and Monetary Recoveries
                                                                                   Resulting from OIG Investigations (in millions)

                                                                   1000
                                 ●   04/00 - 09/00
                                                                    900
                                 ●   10/00 - 03/01                                                          820
                                                                    800
                                 ●   04/01 - 09/01
                                 ●   10/01 - 03/02                  700
                                 ●   04/02 - 09/02                  600                               536
                                                                    500
                                                                    400
                                                                    300
                                                                    200
                                                                    100                   67
                                                                                   10.7        11.8
                                                                      0


                                                                                                                                     53
 Reporting Terms and Requirements
 Index of Reporting Requirements - Inspector General Act of 1978, as amended

     Reporting Requirement                                             Page

     Section 4(a)(2): Review of legislation and regulations              51

     Section 5(a)(1): Significant problems, abuses, and deficiencies   11-32

     Section 5(a)(2): Recommendations with respect to

      significant problems, abuses, and deficiencies                   11-32

     Section 5(a)(3): Recommendations described in previous

      semiannual reports on which corrective action has not

      been completed                                                     56

     Section 5(a)(4): Matters referred to prosecutive authorities        33

     Section 5(a)(5) and 6(b)(2): Summary of instances where

      requested information was refused                                  63

     Section 5(a)(6): Listing of audit reports                           59

     Section 5(a)(7): Summary of particularly significant reports      11-32

     Section 5(a)(8): Statistical table showing the total number of

      audit reports and the total dollar value of questioned costs       61

     Section 5(a)(9): Statistical table showing the total number of

      audit reports and the total dollar value of recommendations

      that funds be put to better use                                    62

     Section 5(a)(10): Audit recommendations more than 6 months

      old for which no management decision has been made                 63

     Section 5(a)(11): Significant revised management decisions

      during the current reporting period                                63

     Section 5(a)(12): Significant management decisions with

     which the OIG disagreed                                             63




54
Reader’s Guide to Inspector General                                                   Once management has disallowed a cost and, in effect,
                                                                                      sustained the auditor’s questioned costs, the last step in
Act Reporting Terms                                                                   the process takes place which culminates in the “final
What Happens When Auditors Identify Monetary
                                                                                      action.” As defined in the Inspector General Act, final
Benefits?
                                                                                      action is the completion of all actions that management
Our experience has found that the reporting terminolo-
                                                                                      has determined, via the management decision process,
gy outlined in the Inspector General Act of 1978, as
                                                                                      are necessary to resolve the findings and recommenda-
amended, often confuses people. To lessen such confu-
                                                                                      tions included in an audit report. In the case of disal-
sion and place these terms in proper context, we pres-
                                                                                      lowed costs, management will typically evaluate factors
ent the following discussion:
                                                                                      beyond the conditions in the audit report, such as qual-
The Inspector General Act defines the terminology and                                 itative judgements of value received or the cost to liti-
establishes the reporting requirements for the identifi-                              gate, and decide whether it is in the Corporation’s best
cation and disposition of questioned costs in audit                                   interest to pursue recovery of the disallowed costs. The
reports. To understand how this process works, it is                                  Corporation is responsible for reporting the disposition
helpful to know the key terms and how they relate to                                  of the disallowed costs, the amounts recovered, and
each other.                                                                           amounts not recovered.

The first step in the process is when the audit report                                Except for a few key differences, the process for reports
                               ▼
identifying questioned costs is issued to FDIC man-                                   with recommendations that funds be put to better use
agement. Auditors question costs because of an alleged                                is generally the same as the process for reports with
violation of a provision of a law, regulation, contract,                              questioned costs. The audit report recommends an
grant, cooperative agreement, or other agreement or                                   action that will result in funds to be used more effi-
document governing the expenditure of funds. In addi-                                 ciently rather than identifying amounts that may need
tion, a questioned cost may be a finding in which, at                                 to be eventually recovered. Consequently, the manage-
the time of the audit, a cost is not supported by ade-                                ment decisions and final actions address the imple-
quate documentation; or, a finding that the expenditure                               mentation of the recommended actions and not the dis-
of funds for the intended purpose is unnecessary or                                   allowance or recovery of costs.
unreasonable.

The next step in the process is for FDIC management
to make a decision about the questioned costs. The
Inspector General Act describes a “management deci-
sion” as the final decision issued by management after
evaluation of the finding(s) and recommendation(s)
included in an audit report, including actions deemed
to be necessary. In the case of questioned costs, this
management decision must specifically address the
questioned costs by either disallowing or not disallow-
ing these costs. A “disallowed cost,” according to the
Inspector General Act, is a questioned cost that man-
agement, in a management decision, has sustained or
agreed should not be charged to the government.



▼
    It is important to note that the OIG does not always expect 100 percent recovery of all costs questioned.



                                                                                                                                       55
     Appendix I: Statistical
     Information Required by
     the Inspector General Act of




     ★
     1978, as amended




★
     Table I.1: Significant
     Recommendations From Previous
     Semiannual Reports on Which
     Corrective Actions Have Not Been
     Completed
     This table shows the corrective actions management has
     agreed to implement but has not completed, along with
     associated monetary amounts. In some cases, these cor-
     rective actions are different from the initial recommen-
     dations made in the audit reports. However, the OIG
     has agreed that the planned actions meet the intent of
     the initial recommendations. The information in this
     table is based on information supplied by the FDIC’s
     Office of Internal Control Management (OICM). These
     33 recommendations from 9 reports involve monetary
     amounts of over $11 million. OICM has categorized the
     status of these recommendations as follows:
     Management Action in Process: (13 recommen-
     dations from 6 reports)
     Management is in the process of implementing the cor-
     rective action plan, which may include modifications to
     policies, procedures, systems or controls; issues involv-
     ing monetary collection; and settlement negotiations in
     process.
     Litigation: (20 recommendations from 3 reports,
     $11 million)
     Each case has been filed and is considered “in litiga-
     tion.” The Legal Division will be the final determinant
     for all items so categorized.




56
Report Number,                                Significant      Brief Summary of Planned
Title,                                        Recommendation   Corrective Actions and
and Date                                      Number           Associated Monetary Amounts

Management Action In Process

01-011                                                         Develop an E-government implementation plan that uses the
Development of the FDIC’s Public              3                Office of Management and Budget’s guidelines for the
Key Infrastructure                                             implementation of the Government Paperwork
May 24, 2001                                                   Elimination Act.

EVAL-01-002                                   2                Assess the need to complete new Position Designation
FDIC’s Background Investigation                                Records for position risk designations where FDIC divisions
Process for Prospective and                                    and offices inconsistently applied U.S. Office of Personnel
Current Employees                                              Management criteria in making the designations.
August 17, 2001

                                              3                Re-designate position sensitivity levels for examiner
                                                               positions to reflect their public trust responsibilities.

                                              4                Alert the Security Management Section of all personnel
                                                               assignments to positions where users have access to
                                                               sensitive computer systems or data.

                                              5                Ensure that new Information Security Manager positions are
                                                               properly designed and appropriate background checks
                                                               are performed.

                                              7                Establish a specific schedule to update the Corporation’s
                                                               employee security database, Employee Background
                                                               Investigation Tracking System.

01-024                                        1                Update both the Unclaimed Deposits Reporting System and
FDIC’s Identification of and Accounting for                    the Corporate Accounts Receivable Management System
Unclaimed Deposits Transferred to State                        with all unclaimed deposits that the FDIC transferred to
Unclaimed Property Agencies                                    state unclaimed property agencies and ensure that the two
December 5, 2001                                               systems agree.

                                              2                Reconcile the variance between the FDIC’s unclaimed
                                                               deposits transferred to states and the state-reported
                                                               unclaimed deposits received.

                                              5                Maintain an accurate automated system of accounting
                                                               for unclaimed deposits transferred to state unclaimed
                                                               property agencies.




                                                                                                                           57
Report Number,                            Significant      Brief Summary of Planned
Title,                                    Recommendation   Corrective Actions and
and Date                                  Number           Associated Monetary Amounts

Management Action In Process

02-002                                    4                Include lessons learned from the Superior resolution in DRR’s
Least Cost Decision of Superior Bank                       proposed Lessons Learned study concerning unique situations
and Liquidation of Remaining                               encountered from DRR’s resolution activities.
Receivership Assets
February 8, 2002
02-006                                    2                Develop a process providing for a reconciliation of restitution
DRR’s Efforts to Facilitate Collections                    orders listed in the Division of Liquidation Locating and Reporting
on Criminal Restitution Orders                             System with the Clerks of the U.S. District Court.
March 5, 2002

02-014                                    1                Determine the total January 1998 through August 2001 amounts
Capitalization of Internal-Use                             not included in the internal-use software costs and assess the
Software Development Costs                                 need to adjust the general ledger for dollar amounts omitted.
March 29, 2002

                                          2                Clarify the FDIC’s policy to capture all internal-use software costs
                                                           incurred by all divisions/offices and provide guidance to employees
                                                           required to account for time based on this information.

Litigation

95-032                                    5                Recover $5,259,285 from the association for noncompliance
Local America Bank, F.S.B.,                                with the tax benefits provisions of the assistance
Assistance Agreement                                       agreement.
March 24, 1995
96-014                                    1, 4-16          Recover $4,526,389 of assistance paid to Superior Bank.
Superior Bank, F.S.B., Assistance
Agreement, Case Number C-389c
February 16, 1996

98-026                                    2, 3, 4, 6       Recover $1,220,470 of assistance paid to Superior Bank.
Assistance Agreement Audit of
Superior Bank, Case Number C-389c         11               Compute the effect of understated Special Reserve Acccount
March 9, 1998                                              for Payments in Lieu of Taxes and remit any amounts due
                                                           to the FDIC.




58
Table 1.2: Audit Reports Issued by Subject Area
                     Audit Report                                          Questioned Costs           Funds Put To
Number and                                                                                            Better
Date                 Title                                       Total                  Unsupported   Use
Supervision and Insurance

EVAL-02-003          Joint Evaluation of the Federal
June 21, 2002        Financial Institutions Examination
                     Council

02-025               DOS’s Implementation of Gramm-Leach-
July 31, 2002        Bliley Act Provisions

02-033               Statistical CAMELS Offsite Rating
September 26, 2002   Review Program for FDIC-Supervised
                     Banks

Receivership and Legal Affairs

02-017               Asset Valuation Review (AVR) Process
April 30, 2002       for Sinclair National Bank

02-019               Professional Liability Claims Process
May 31, 2002

02-024               Marketing and Resolution of Superior        $28,043
July 24, 2002        Federal, FSB (New Superior)

02-032               Receivership Termination Activity
September 20, 2002

Information Assurance

02-023               Internal and Security Controls Related to
July 31, 2002        the General Examination System (GENESYS)

02-026               Network Operations Vulnerability
August 9, 2002       Assessment

02-027               Computer Security Incident Response
August 28, 2002      Team Activities

02-031               Independent Evaluation of the FDIC’s
September 11, 2002   Information Security Program - 2002

02-035               Information Security
September 30, 2002   Management of FDIC Contractors




                                                                                                            59
                          Audit Report                                                   Questioned Costs                 Funds Put To
Number and                                                                                                                Better
Date                     Title                                                Total                         Unsupported   Use
Resource Management

EVAL-02-002               Physical Security for the FDIC’s
May 31, 2002              Washington, D.C. Area Facilities

02-016                    FDIC’s Assessment of Corrective Action
July 24, 2002             Work Performed by Third-Party
                          Contractors

02-022                    Review of the FDIC’s Strategy for Managing
June 14, 2002             Improper Payments

02-030                    FDIC Travel Card Program
August 30, 2002

EVAL-02-004               Physical Security for the FDIC’s
September 23, 2002        Regional and Field Offices

Post-award Contracts Audits

02-018                    Billing Review of ABACUS                            $313,318
May 21, 2002              Technology Corporation

02-029
                                                     a
August 30, 2002           Post-award Contract Audit                           $215,174

Preaward Reviews

02-020                    Preaward Contract Review
May 31, 2002

02-021                    Preaward Contract Review
June 14, 2002

02-028                    Preaward Contract Review
August 23, 2002

Other Activity

Not Numbered b            Undelivered State Tax Refunds
August 26, 2002           Belonging to FDIC-Managed                                                                       $1,559,418
                          Failed Financial Institutions

TOTALS FOR THE PERIOD                                                         $556,535                                    $1,559,418

a
Management response not due until October 30, 2002.
b
This memorandum was a follow-up to our December 6, 2001, memorandum concerning our review of undelivered tax refunds.
.


    60
Table 1.3: Audit Reports Issued with Questioned Costs
                                                                                                              Questioned Costs
                                                                                 Number
                                                                                                     Total                          Unsupported
A. For which no management decision                                                  0                  0                               0
   has been made by the commencement
   of the reporting period.

B. Which were issued during the reporting period.                                    3              556,535                             0

Subtotals of A & B                                                                   3              556,535                             0

C. For which a management decision was made
   during the reporting period.                                                     2               341,361                             0
   (i) dollar value of disallowed costs.                                            2                62,969                             0
   (ii) dollar value of costs not disallowed.                                       1 ▼
                                                                                                    278,392                             0

D. For which no management decision has been made
                                                                                      ♦
   by the end of the reporting period.                                              1               215,174                             0

    Reports for which no management decision was made                                0                 0                                0
    within 6 months of issuance.




▼
  The one report included on the line for costs not disallowed is also included in the line for costs disallowed, because management did not agree with
  some of the questioned costs.
♦
  Management response not due until October 30, 2002.




                                                                                                                                            61
Table 1.4: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                         Number                              Dollar Value
A. For which no management decision has been
   made by the commencement of the reporting period.                      0                                      0

B. Which were issued during the reporting period.                         1                                 1,559,418

Subtotals of A & B                                                        1                                 1,559,418

C. For which a management decision was made
   during the reporting period.                                           0                                      0
   (i) dollar value of recommendations that were
        agreed to by management.                                          0                                      0
        - based on proposed management action.                            0                                      0
        - based on proposed legislative action.                           0                                      0
   (ii) dollar value of recommendations that were
        not agreed to by management.                                      0                                      0

D. For which no management decision has
   been made by the end of the reporting period.                         1▲                                 $1,559,418

      Reports for which no management decision was
      made within 6 months of issuance.                                   0                                       0




▲
    These Funds Put to Better Use were identified in a memorandum to management regarding undelivered tax refunds. See page 32 of the report.




62
Table 1.5: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations without management decisions.



Table 1.6: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.



Table I.7: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.



Table I.8: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




                                                                                                       63
Abbreviations and Acronyms

AICPA    American Institute of Certified Public   GENESYS       General Examination System
         Accountants
                                                  GISRA         Government Information Security
APM      Acquisition Policy Manual                              Reform Act

AVR      Asset Valuation Review                   GLBA          Gramm-Leach-Bliley Act

BIF      Bank Insurance Fund                      HCSB          Hartford-Carlisle Savings Bank

CD       Certificates of Deposit                  HRC           Human Resources Committee

CIO      Chief Information Officer                IFS           Institution for Savings

CPICP    Capital Planning and Investment          IG            Inspector General
         Control Process
                                                  IRS           Internal Revenue Service
CSIRT    Computer Security Incident
         Response Team                            IT            Information Technology

DIRM     Division of Information                  MWSB          Murphy Wall State Bank
         Resources Management
                                                  NVST          Network Vulnerability Scanning Tool
DOA      Division of Administration
                                                  OCC           Office of the Comptroller of the
DOS      Division of Supervision                                Currency

DRR      Division of Resolutions and              OI            Office of Investigations
         Receiverships
                                                  OICM          Office of Internal Control Management
DSC      Division of Supervision and
         Consumer Protection                      OIG           Office of Inspector General

EBISS    Executive Branch Information             OMB           Office of Management and Budget
         Systems Security
                                                  OTS           Office of Thrift Supervision
ECIE     Executive Council on Integrity
         and Efficiency                           PCIE          President’s Council on Integrity
                                                                and Efficiency
FBI      Federal Bureau of Investigation
                                                  PwC           PricewaterhouseCoopers Consulting
FDIC     Federal Deposit Insurance Corporation
                                                  Results Act   Government Performance and Results
FFIEC    Federal Financial Institutions                         Act
         Examination Council
                                                  RTC           Resolution Trust Corporation
FRB      Federal Reserve Board
                                                  SAIF          Savings Association Insurance Fund
GAAS     Generally Accepted Auditing Standards
                                                  SCOR          Statistical CAMELS Offsite Rating
GAO      U.S. General Accounting Office

Abbreviations and Acronyms


64
Congratulations to PCIE Award                          Award for Excellence - PCIE Audit Committee
                                                       Peer Review Working Group
Recipients!                                            In recognition of outstanding efforts and diligent work
Joint PCIE/ECIE Award for Excellence -                 as a member of the PCIE Audit Committee working
Emerging Issues Symposium Team
                                                       group to improve the quality and effectiveness of the
For hard work and innovation while working together
                                                       peer review process through the revision and update of
to organize an Emerging Issues Symposium for the
                                                       the PCIE Peer Review Guide
Offices of Inspector General of the Federal Deposit
Insurance Corporation, the Department of the            • Ted Baca
Treasury, and the Board of Governors of the Federal
Reserve System                                         Individual Accomplishment Award
                                                       For sustained exemplary performance as liaisons for
 • Thomas J. Mroczko                                   the PCIE Vice Chair and the Inspector General
                                                       Community
 • Tiffani P. Kinzer
                                                        • Magdaleno Velasquez
 • H. Vernon Davis (formerly with FDIC OIG, now
   retired)                                             • Leslee A. Bollea
 • Leslye K. Burgess (formerly with FDIC OIG, now
   with Treasury OIG)
Award for Excellence - Superior Bank Review
Team
For outstanding work performed on the Review of
Issues Related to the Failure of Superior Bank, FSB,
Hinsdale, Illinois

 • Michael R. Lombardi
 • Philip B. Anderson
 • John J. Colantoni                                                                        IG Gianni with T. Kinzer (l.) and
                                                                                            L. Burgess (r.), members of the
 • Jeffrey B. Smullen                                                                       Emerging Issues Symposium team.

 • James F. Misch
 • Danial J. Olberding
 • H. Vernon Davis (formerly with FDIC OIG, now
   retired)

 • Leslye K. Burgess (formerly with FDIC OIG, now
   with Treasury OIG)
                                                                   IG Gianni with members of the Superior Bank team. Left to
                                                                   right - P. Anderson, J. Smullen, IG Gianni, and L. Burgess.




                                                                                                                     65
